U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division




                      Review of the Bureau of Alcohol,
                             Tobacco, Firearms
                              and Explosives’
                         Enforcement of Brady Act
                       Violations Identified Through
                       the National Instant Criminal
                        Background Check System

                                 Report Number I-2004-006




                                        `July 2004
                               EXECUTIVE DIGEST


       The Office of the Inspector General (OIG) reviewed the Bureau of
Alcohol, Tobacco, Firearms and Explosives’ (ATF) enforcement of violations
of the Brady Handgun Violence Prevention Act of 1993 (Brady Act) (Public
Law 103-159) that are identified through the Federal Bureau of
Investigation’s (FBI) National Instant Criminal Background Check System
(NICS). Specifically, we reviewed the extent to which the ATF investigated
violations of the Brady Act referred by the FBI, whether the ATF retrieved
firearms issued to prohibited persons in a timely manner, and the extent to
which Brady Act violations were referred to and prosecuted by the U.S.
Attorneys’ offices (USAO).

       The Gun Control Act of 1968 (GCA) (Public Law 90-618) established
nine categories of persons prohibited from possessing firearms.1 The Brady
Act of 1993 created a 3-day waiting period before a purchaser can take
possession of a firearm, and it established a background check system – the
NICS – that firearms dealers were required to contact before the transfer of
any firearm to ensure that a person receiving a firearm was not prohibited
under the GCA from possessing firearms. The FBI implemented the NICS
on November 30, 1998. To verify the eligibility of a prospective firearms
purchaser, Federal Firearms Licensees (FFL) request a NICS check through
either the FBI or a state point of contact (POC). During calendar years (CY)
2002 and 2003, the FBI processed 8.5 million NICS background checks and
state POCs processed 8.2 million NICS background checks.

       To conduct background checks on potential firearms purchasers, the
FBI must rely on state criminal history records and records on other
prohibited categories that are not totally complete and accessible. As a
result, the FBI cannot always obtain complete background information
within the 3-day waiting period. The law allows any FFL to transfer a
firearm at the end of the 3-day waiting period regardless of whether the
background check has been completed. Some prohibited persons thus

       1 These nine categories are: (1) those under indictment for or convicted of a crime
punishable by imprisonment for a term exceeding one year; (2) fugitives from justice;
(3) unlawful users and/or addicts of any controlled substances; (4) those adjudicated as
mentally defective or who have been involuntarily committed to a mental institution or
otherwise judged incompetent to handle their own affairs; (5) illegal aliens or aliens
admitted to the United States under a nonimmigrant visa; (6) those dishonorably
discharged from the U.S. Armed Forces; (7) those who have renounced their U.S.
citizenship; (8) subjects of a protective order; and (9) those convicted of a misdemeanor
crime of domestic violence.


U.S. Department of Justice                                                              i
Office of the Inspector General
Evaluation and Inspections Division
receive firearms when the background check takes longer than three days to
complete.

       The FBI refers to the ATF the names of all prohibited persons who
attempted to or succeeded in obtaining a firearm from an FFL. The ATF is
responsible for promptly retrieving firearms transferred to persons found to
be prohibited subsequent to the 3-day processing deadline and for
investigating those referrals from the FBI that meet the USAOs’
prosecutorial guidelines. During CYs 2002 and 2003, the FBI referred a
total of 7,030 cases to the ATF in which persons that it identified as
prohibited succeeded in obtaining firearms (“delayed denial” cases). The FBI
also referred a total of 121,909 “standard denial” cases in which
background checks were completed in time to prevent a prohibited person
from obtaining a firearm.

      At the ATF, the Brady Operations Branch reviews the FBI referrals
and forwards those denials that require a firearm retrieval or that meet the
USAOs’ prosecutorial guidelines to the NICS coordinator in the appropriate
ATF division office. Each NICS coordinator reviews the referrals and
disseminates them to the appropriate field or satellite office for investigation.

RESULTS IN BRIEF

      The ATF is responsible for retrieving firearms expeditiously from
persons prohibited by the GCA from possessing firearms. We found that
although the ATF normally has been able to retrieve the firearms eventually,
the retrievals were not always timely. We also found that ATF special agents
did not sufficiently document retrievals or provide assurance that a
prohibited person no longer had access to the firearm.

      Since 1998, the ATF has made progress in screening standard denial
cases referred by the FBI. However, we found that the Brady Operations
Branch and the ATF division offices were still referring standard denial
cases to the ATF field offices that lacked prosecutorial merit, thereby
increasing the workload of already overburdened field investigators and
delaying the investigation of prosecutable cases. Cases without
prosecutorial merit were being referred due to the lack of sufficient USAO
prosecutorial guidelines, inadequate screening by some ATF divisions,
inadequate communication, and insufficient training and guidance.

       The Brady Operations Branch was using broad guidelines synthesized
from jurisdiction-specific guidelines prepared by multiple USAOs. As a
result, ATF division office personnel were required to perform additional
screening using more specific individual USAO guidelines in order to


U.S. Department of Justice                                                  ii
Office of the Inspector General
Evaluation and Inspections Division
determine whether a case merited investigation. Further, we found that the
ATF had not allocated sufficient resources to the Brady Operations Branch
to enable it to fully execute its responsibilities. Insufficient staffing resulted
in extensive NICS case backlogs, which delayed the referral process and
affected the timeliness of investigations. Also, the ATF had not provided
funds for technological modifications of its case tracking and referral system
to improve the operational efficiency of the Brady Operations Branch.

      Our review also found that few NICS cases are prosecuted. During
CYs 2002 and 2003, only 154 (less than 1 percent) of the 120,000 persons
who were denied during the NICS background check were prosecuted.
Historically, USAOs have been unsuccessful in achieving convictions in
many of these cases and consequently have been unwilling to expend their
limited resources on prosecuting most NICS cases.

The ATF Does Not Always Make Timely Firearms Retrievals

       We identified delays in retrieving firearms in 65 of the 188 cases (35
percent) we reviewed for which investigations were completed. In 28 of
these 65 cases (43 percent), it took from four months to over a year to
retrieve the firearm. We identified a number of reasons for these delays:

       •   The Brady Operations Branch did not have the technological
           capability to transfer the delayed denials directly to the field and
           satellite offices, and instead routed the denials through the
           division NICS coordinators. Not all NICS coordinators were timely
           in forwarding these denials to the field offices.

       •   Insufficient staffing at some ATF field and satellite offices made it
           difficult for special agents to investigate the large volume of labor-
           intensive NICS cases in addition to conducting other high-priority
           investigations, such as those involving firearms trafficking,
           explosives, and arsons. In addition, the large geographic territories
           some of the field offices cover make retrieving a firearm a time-
           consuming process.

       •   ATF special agents did not consider most of the prohibited persons
           who had obtained guns to be dangerous and therefore did not
           consider it a priority to retrieve the firearm promptly.

       •   The ATF had not established timeliness standards for retrieving
           firearms and did not track the retrieval process.




U.S. Department of Justice                                                  iii
Office of the Inspector General
Evaluation and Inspections Division
        These delays increase the risk that prohibited persons may use the
illegally obtained firearm to harm others or to otherwise commit a crime. In
one of our sampled cases, for instance, the prohibited person fired the
weapon at another person’s car and was subsequently charged by local law
enforcement with aggravated assault.

The ATF’s Firearms Retrieval Procedures Are Inadequate

       We noted deficiencies in the ATF field office procedures for initiating
retrievals, documenting who took possession of firearms relinquished by
prohibited persons, and verifying and documenting that third parties
receiving the firearms were not themselves prohibited from possessing
firearms.

       Before sending an agent to retrieve a firearm, field offices in some
cases sent a contact letter to the prohibited person requesting that the
firearm be voluntarily surrendered. According to the ATF special agents we
interviewed, these letters generally elicited a high response rate. However,
we found that the effectiveness of these letters was diminished because the
ATF field offices were not always timely in sending the contact letters, did
not specify a time frame in the letter for the recipient to respond, and did
not always take timely action if there was no response.

       When delayed denials occur, the ATF allows prohibited persons to
relinquish their firearms to FFLs or to third parties of their own choosing.
In some instances, the ATF learns that state or local law enforcement
agencies have seized a firearm it is attempting to retrieve. In these cases,
we found that the ATF special agents handling retrievals did not always
verify and document what became of the firearms. In more than half (55
percent) of the 101 cases in our sample in which the firearm was recovered,
there was no documented evidence in the investigative case file of the
recovery. As a result, there was no assurance that the prohibited person
had relinquished control of the firearm.

      In addition, of the 59 sampled cases involving third party transfers,
only 24 cases (41 percent) contained evidence that the special agent had
conducted a background check to verify that the third party was not
prohibited. Failure to verify the prohibited status of the third party can
result in the firearm being transferred from one prohibited person to
another.




U.S. Department of Justice                                                 iv
Office of the Inspector General
Evaluation and Inspections Division
ATF Field Offices Receive Too Many Standard Denial Cases That Are
Unlikely to Be Prosecuted

       The case management system used by the Brady Operations Branch
does not identify cases by USAO jurisdiction. Therefore, the Brady
Operations Branch applied broad guidelines rather than guidelines specific
to particular USAOs when screening cases for prosecutorial merit. The
result is that too many standard denial cases without prosecutorial merit
are referred to the divisions and field offices. The case management system
also cannot route referrals directly to the field investigators, thereby
delaying retrievals. If the case management system was modified to identify
cases by USAO jurisdiction and allow direct referrals to the field offices, the
Brady Operations Branch could screen standard denials using specific
USAO guidelines and then refer cases with prosecutorial merit directly to
the field investigators, bypassing the NICS coordinators. This would
eliminate the need for NICS coordinators to perform additional screening
and therefore should improve the timeliness of the referrals to the field
offices.

      Our review identified other reasons why the field offices were receiving
an excessive number of standard denial referrals that were not likely to be
prosecuted:

       •   The USAOs had not provided sufficient prosecutorial guidelines.
           We found that of the 25 USAOs included in our review, 8 had not
           provided written prosecutorial guidelines to the ATF. Of the 17
           guidelines, 1 was not sufficiently specific to identify cases likely to
           result in successful prosecutions.

       •   Not all ATF division offices screened NICS cases before forwarding
           them to a field office. We found that the NICS coordinators at 6
           (35 percent) of the 17 division offices that receive referrals from the
           Brady Operations Branch were not screening referrals for
           prosecutorial merit.2 At these locations, the field offices had the
           burden of screening the cases.

       •   The NICS coordinators lacked training and written guidance. The
           ATF had not held a NICS coordinator training conference since
           2000. That conference was attended by only 6 of the 17 current
           coordinators who regularly receive NICS referrals. Further, the



       2 Six divisions are in POC states and do not receive referrals from the Brady

Operations Branch.


U.S. Department of Justice                                                             v
Office of the Inspector General
Evaluation and Inspections Division
           ATF had not provided the NICS coordinators with standardized
           written guidance on procedures for screening referrals.

       •   The Brady Operations Branch was unnecessarily forwarding alien
           cases to the division offices. The GCA generally prohibits illegal
           and nonimmigrant aliens from possessing firearms. The Brady
           Operations Branch routinely refers NICS cases involving denials for
           aliens to the Department of Homeland Security’s Bureau of
           Immigration and Customs Enforcement (ICE). However, we found
           that the Brady Operations Branch also forwarded alien cases to
           the ATF division offices. The division and field offices often closed
           these cases without investigation because they did not involve
           other prohibiting factors. Our sample of 200 standard referrals
           included 22 alien cases, none of which contained any other
           prohibiting factors such as criminal records.

       •   ATF field personnel did not provide feedback to the Brady
           Operations Branch or the NICS coordinators on referrals that did
           not meet USAO prosecutorial guidelines. We found that the
           division office NICS coordinators did not forward to the field offices
           36 to 95 percent of the standard denial referrals they received from
           the Brady Operations Branch. In addition, several of the field
           office group supervisors told us that they did not investigate the
           majority of the referrals they received from their NICS coordinators.
           In both these of situations, the field office group supervisors failed
           to communicate to the NICS coordinators and the NICS
           coordinators failed to communicate to the Brady Operations
           Branch that these types of cases lacked prosecutorial merit. In the
           absence of specific prosecutorial guidelines, it is particularly
           important for the field investigators to provide feedback to the
           NICS coordinators or the Brady Operations Branch on the
           categories of referrals not being investigated. The information
           could have been used to reduce the number of cases without
           prosecutorial merit that they refer to the field offices.




U.S. Department of Justice                                                  vi
Office of the Inspector General
Evaluation and Inspections Division
Some Denied Persons Are Subsequently Determined by the ATF Not to
Be Prohibited

       We found that 69 (35 percent) of the 197 delayed denials and 16 (8
percent) of the 200 standard denials that we sampled were applicants who
subsequently were found not to be prohibited from possessing a firearm.
This situation occurred for several reasons: (1) the subject’s firearm rights
had been restored under state law, (2) the subject’s prohibition for a
misdemeanor crime of domestic violence did not meet the federal criteria, or
(3) a protective order had expired or was about to expire.

      Erroneous denials in which a person is found not to be prohibited
cannot always be prevented or detected easily. These denials are usually
due to incomplete information in the states’ automated criminal history
records and require the ATF to review states’ records to determine whether
prohibiting factors exist.

Improvements Are Needed in the Brady Operations Branch

       We found that the Brady Operations Branch does not have sufficient
resources to execute its responsibilities effectively. Insufficient staffing
resulted in extensive NICS case backlogs during peak seasons, which
delayed the referral process and affected the timeliness of investigations of
standard denials. As of December 2003, the Brady Operations Branch had
a backlog of 9,230 NICS referrals. As of mid-June 2004, a backlog of 2,819
NICS referrals remained. Subsequent to our review, the ATF Brady
Operations Branch Chief submitted a request to ATF headquarters for two
contract employees to supplement the specialist staff. As of mid-June 2004,
this request had not been funded.

       We also found that insufficient funds were provided for upgrading
computer hardware and software to improve the operational efficiency of the
Brady Operations Branch. These upgrades would allow the Brady
Operations Branch specialists to scan and automatically forward FFL and
court documents to the division offices, enable Brady Operations Branch
management to monitor the processing timeliness, allow specialists to
document the qualifying criteria, enlarge the space for specialists to type
their comments, and allow specialists to automatically identify instances in
which the prohibited person either made or attempted multiple purchases.
The Brady Operations Branch requested funds to upgrade its computer
system but did not receive this funding.




U.S. Department of Justice                                              vii
Office of the Inspector General
Evaluation and Inspections Division
Few NICS Cases Are Prosecuted

      A June 28, 2001, memorandum from the Attorney General directed
the U.S. Attorneys to “make it a priority to enforce the law against those
persons who attempt to subvert the legitimate crime prevention objectives of
the Brady Act and to incorporate this new focus into [their] comprehensive
prosecutive efforts.” During CYs 2002 and 2003, approximately 120,000
cases were referred by the FBI to the Brady Operations Branch. Of these
cases, the ATF formally referred only 230 to the USAOs, and the USAOs
accepted 185, or 80 percent for prosecution.3 Of these cases, 154 were
prosecuted.

       We believe that the number of referrals and prosecutions is low
because of the difficulty in obtaining convictions in NICS cases. These cases
lack “jury appeal” for various reasons. The factors prohibiting someone
from possessing a firearm may have been nonviolent or committed many
years ago. The basis for the prohibition may have been noncriminal (e.g., a
dishonorable discharge from the U.S. military). It is also difficult to prove
that the prohibited person was aware of the prohibition and intentionally
lied to the FFL. We were also told that in parts of the United States where
hunting historically has been part of the regional culture, juries are
reluctant to convict a person who attempted to purchase a hunting rifle.

RECOMMENDATIONS

       Our recommendations focus on the need to centralize at the Brady
Operations Branch the screening and referral of NICS cases that the ATF
receives from the FBI examiners. Centralization would reduce delays in
getting firearm retrieval cases to the ATF field investigators and make it
more likely that only standard denial cases with prosecutorial merit are
referred to them.

       We recommend that:

       1.    The ATF should modify its NFORCE system to allow the Brady
             Operations Branch to refer delayed denials directly to the
             appropriate ATF field office.

       2.    The ATF should use non-agent personnel to handle the
             administrative tasks related to NICS cases.


        3 Field investigators informally refer cases to the U.S. Attorney in order to determine

interest in prosecution. The number of information referrals is not tracked in NFORCE,
ATF’s cases management system.


U.S. Department of Justice                                                              viii
Office of the Inspector General
Evaluation and Inspections Division
       3.   The ATF should establish timeliness standards for firearm
            retrievals and develop a system for ATF field office management
            to monitor and report on compliance with these standards.

       4.   The ATF should revise its standard initial contact letter to include
            a response time frame and should direct its personnel to send the
            letters on a timely basis, to track responses to the letters, and to
            take timely action to retrieve the firearms when the letters are
            unsuccessful in eliciting a response.

       5.   The EOUSA should ensure that annually each USAO provide the
            ATF with specific prosecutorial guidelines for NICS cases.

       6.   The ATF should examine the feasibility of enabling Brady
            Operations Branch specialists to identify NICS cases by federal
            judicial district, thereby enabling the ATF to consolidate all its
            NICS referral screening at the Brady Operations Branch. In the
            interim, the ATF should require all division office NICS
            coordinators to screen NICS standard denial referrals and refer to
            the field offices only those cases that meet USAO prosecutorial
            guidelines.

       7.   The ATF should provide annual training to the NICS coordinators
            and develop a NICS coordinator handbook.

       8.   The ATF Brady Operations Branch should refer to the field offices
            only those alien cases that meet the USAO prosecutorial
            guidelines.

       9.   The ATF should require division office NICS coordinators and
            field office personnel to notify the Brady Operations Branch of
            those referrals that do not meet USAO guidelines.

       10. The ATF should require division office NICS coordinators and
           field office personnel to notify the Brady Operations Branch and
           the FBI NICS Section of trends in inappropriate referrals of non-
           prohibited persons. Also, require that the field office personnel,
           via the division office NICS coordinators, provide to the FBI NICS
           Section the names of those individuals that the ATF determines
           not to be prohibited and documentation to support the reason for
           the person’s non-prohibited status.




U.S. Department of Justice                                                 ix
Office of the Inspector General
Evaluation and Inspections Division
       11. The ATF should ensure that the Brady Operations Branch is
           sufficiently staffed to minimize backlogs and sufficiently funded
           to implement necessary automated system modifications.

       12. The FBI should distinguish delayed denials from standard
           denials on its daily electronic transfers of denial transactions to
           the ATF.




U.S. Department of Justice                                                 x
Office of the Inspector General
Evaluation and Inspections Division
                                 TABLE OF CONTENTS


INTRODUCTION ...............................................................................1

   Purpose ...........................................................................................1

   Background.......................................................................................1

   Scope and Methodology of the OIG Review .......................................14


RESULTS OF THE REVIEW.............................................................16

   The ATF Does Not Always Make Timely Firearms Retrievals .............. 16
       Recommendations ....................................................................23

   Firearms Retrieval Procedures Are Inadequate .................................24
       Recommendation .......................................................................29

   ATF Field Offices Receive Too Many Standard Denial Cases
   That Are Unlikely to Be Prosecuted ..................................................29
      Recommendations .....................................................................37

   Some Denied Persons Are Subsequently Determined
   by the ATF Not to Be Prohibited .......................................................38
       Recommendation .......................................................................42

   Improvements Are Needed in Brady Operations Branch ...................42
      Recommendations .....................................................................46

   Few NICS Cases Are Prosecuted.......................................................47


CONCLUSION .................................................................................52


APPENDIX I: States and Their Level of Participation in the NICS…......54

APPENDIX II: Number of Standard Denials Either Closed by
the ATF Brady Operations Branch or Sent to the ATF Field Divisions
for Investigation (CY 2002 and CY 2003)… ...........................................55


U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division
APPENDIX III: Number of NICS Cases Received by the ATF
Field Divisions From the ATF Brady Operations Branch
(CY 2002 and CY 2003) ........................................................................56

APPENDIX IV: ATF Comments on the Draft Report .............................57

APPENDIX V: EOUSA Comments on the Draft Report .........................63

APPENDIX VI: FBI Comments on the Draft Report..............................65

APPENDIX VII: OIG Analysis of ATF, EOUSA, and FBI Comments ......67




U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division
                                  INTRODUCTION


Purpose

      The Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF) is
responsible for ensuring that firearms remain out of the hands of
persons prohibited by law from possessing firearms (prohibited persons)
and for investigating criminal attempts to evade the requirements of the
Brady Handgun Violence Prevention Act (Brady Act) of 1993 (Public Law
103-159).

      The Office of the Inspector General (OIG) reviewed the ATF’s
enforcement of violations of the Brady Act identified through the Federal
Bureau of Investigation’s (FBI) National Instant Criminal Background
Check System (NICS). Specifically, we reviewed the extent to which the
ATF investigated Brady Act violations referred to it by the FBI, whether
the ATF timely retrieved firearms issued to prohibited persons, and the
extent to which Brady Act violations were referred to and prosecuted by
the U.S. Attorneys’ offices (USAO).

Background
Legislative History of the NICS

      The Gun Control Act of 1968 (GCA), Public Law 90-618,
established rules and regulations for persons engaged in the business of
buying and selling firearms.4 The GCA also identified nine categories of
persons prohibited from possessing firearms:

       •     Those under indictment for or convicted of a crime punishable
             by imprisonment for a term exceeding one year;

       •     Fugitives from justice;

       •     Unlawful users and/or addicts of any controlled substances
             (defined by convictions, multiple arrests, or drug test failures);




       4   Title 18, U.S.C. Chapter 44, Section 922.

U.S. Department of Justice                                                 1
Office of the Inspector General
Evaluation and Inspections Division
       •   Those adjudicated as mentally defective or who have been
           involuntarily committed to a mental institution or otherwise
           judged incompetent to handle their own affairs;

       •   Illegal aliens or aliens admitted to the United States under a
           nonimmigrant visa;

       •   Those dishonorably discharged from the U.S. Armed Forces;

       •   Those who have renounced their U.S. citizenship;

       •   Subjects of a protective order (excluding ex parte orders); and

       •   Those convicted of a misdemeanor crime of domestic violence.

      The Brady Act, enacted on November 30, 1993, created a 3-day
waiting period before a purchaser can take possession of a firearm. It
also established a background check system that firearms dealers were
required to contact before the transfer of any firearm to ensure that the
person receiving it was not prohibited under the GCA from possessing a
firearm.5 The NICS, developed by the FBI in coordination with the ATF
and local and state law enforcement agencies, became operational on
November 30, 1998.

The NICS Process

       To purchase a firearm, a person must provide photo identification
to the federal firearms licensee (FFL) and complete ATF Form 4473
(Firearm Transaction Record). This form requires the prospective buyer
to provide biographical data and to check a “yes” or “no” box pertaining
to each of the nine categories of prohibited persons. If the prospective
buyer checks a “yes” box for any of the categories, the FFL must deny the
sale. If the prospective buyer checks a “no” box for all of the categories,
the FFL must request a background check through the NICS before
transferring the firearm. To do this, the FFL calls either a state point of
contact (POC) or the FBI.6 Those contacting the FBI can either phone

        5 The Brady Act applies only to federally licensed firearms importers,

manufacturers, and dealers. The law does not apply to the transfer of firearms between
two licensees, only between a licensee and a nonlicensee.

       6 Currently, 14 states have full POC authority, and 9 states have partial POC

authority (i.e., the states perform background checks for handgun purchases and/or
handgun permits; the FBI performs background checks for long gun purchases). In the

U.S. Department of Justice                                                      2
Office of the Inspector General
Evaluation and Inspections Division
one of two FBI contracted call centers or conduct their own background
check by accessing the NICS E-Check system via the Internet.7

      During calendar year (CY) 2002, the NICS processed 8.5 million
background checks (4.3 million by the FBI; 4.2 million by POC states).
During CY 2003, the NICS processed 8.5 million background checks (4.5
million by the FBI; 4 million by the POC states). The number of
background checks has remained relatively constant since the NICS was
implemented in November 1998, as shown in Figure 1.

           Figure 1: Number of NICS Background Checks Processed
                               CY 1998-2003




                             10,000,000

                                8,000,000
                 Number of      6,000,000
                Background
                  Checks        4,000,000

                                2,000,000

                                       0
                                            1998   1999   2000   2001   2002   2003
                   By POC States                             Year
                   By the FBI

                 Source: FBI NICS

      When a name is submitted for a background check, the NICS
searches three databases for disqualifying information:




remaining 27 states (plus Washington, D.C.; the Northern Mariana Islands; the U.S.
Virgin Islands; Guam; and Puerto Rico), the FFLs deal directly with the FBI. See
Appendix I for details.

        7 The FBI initiated the NICS E-Check system on August 19, 2002. The system

functions similarly to the call center. The FFL can log onto the system and check the
status of the background check 24 hours a day. As of December 31, 2003, a total of
3,252 FFLs were enrolled and actively using the NICS E-Check option, and a total of
72,890 transactions had been processed. Although this option is currently available
only to FFLs who process their background checks through the FBI, the FBI is planning
to extend this option to FFLs located in POC states.



U.S. Department of Justice                                                            3
Office of the Inspector General
Evaluation and Inspections Division
       •   The Interstate Identification Index (III) for information on
           criminal history;

       •   The National Crime Information Center (NCIC) for information
           on protective orders, active felony or misdemeanor warrants,
           and immigration violations; and

       •   The NICS Index for information provided by federal, state, and
           local agencies on other prohibited categories (such as illegal
           aliens, persons who renounced their citizenship, persons
           adjudicated mentally defective, persons dishonorably
           discharged from the military, and controlled substance
           abusers).8

      If the call center operator finds no matching records in any of the
three databases, the operator advises the FFL to proceed with the
firearms transfer. The call center operator provides the FFL with a NICS
transaction number, which the FFL is required to record on ATF Form
4473. According to the FBI, in CY 2003, call center operators gave an
immediate “proceed” response 74 percent of the time.

       If a matching record is found, the operator transfers the call to the
FBI’s NICS Section for review and evaluation by a NICS examiner, who has
access to detailed information on criminal records and other disqualifiers
(which the call center operator does not). In CY 2003, call center
operators transferred 26 percent of the calls to NICS examiners. The
examiner determines whether the NICS record is complete, whether the
record matches the prospective buyer, and whether the record indicates
that the person is prohibited from possessing a firearm. If the data field
“Country of Citizenship” contains anything other than “United States,” the
NICS automatically initiates an Immigration Alien Query (IAQ) through the
Department of Homeland Security’s Bureau of Immigration and Customs
Enforcement’s (ICE) databases. If the name match is not valid (i.e., the
person purchasing the firearm is not the same person with the record) or
if no prohibitive criteria exist, the NICS examiner gives the FFL permission
to proceed. If prohibitive criteria exist, the NICS examiner advises the FFL


      8 Federal agencies authorized to provide information to the NICS include the

Department of Defense, the Department of Homeland Security’s Bureau of Immigration
and Customs Enforcement, the Department of State, the U.S. Coast Guard, and the
Department of Veterans Affairs.



U.S. Department of Justice                                                   4
Office of the Inspector General
Evaluation and Inspections Division
to deny the firearm transaction. In CY 2003, NICS examiners provided the
FFL with an immediate determination as to whether the person was
prohibited for 18 percent of the 26 percent of the requests sent to the
NICS Section.

      If more research is needed to make a determination, the NICS
examiner advises the FFL to delay the firearm transaction (additional
research was required in 8 percent of the CY 2003 requests).9 Once the
research is completed, the NICS examiner relays the results to the FFL.

       In CY 2002, the FBI denied 60,739 transactions (1.4 percent of the
total transactions); in CY 2003, the FBI denied 61,170 transactions (1.4
percent of the total transactions). In over half of these denials, the
person either had been convicted of or was under indictment for felonies
or had been convicted of domestic violence crimes, as shown in Table 1.

                     Table 1: Reasons for NICS Denials
                           CY 2002 and CY 2003

                              CY 2002        CY 2003
       Reason             Total Percent Total Percent
       Felony            25,814     42.5 23,636    38.6
       Domestic Violence 10,811     17.8 10,523    17.2
       Drug Addict         4,009     6.6  4,918     8.1
       Fugitive            2,430     4.0  2,874     4.7
       Mentally Ill          243     0.4    315     0.5
       Other*            17,432     28.7 18,904    30.9
       Total             60,739    100.0 61,170   100.0
       Source: FBI NICS

       * “Other” includes aliens, persons dishonorably discharged from the U.S.
         Armed Forces, persons who have renounced their citizenship, and
         persons who are prohibited by a state from possessing a firearm.

      If the NICS examiner has not made a determination by the end of
the third business day, the NICS examiner advises the FFL of its right
under the Brady Act to allow the firearm transfer, a “default proceed.”

        9 For example, the records may indicate that the individual was arrested for a

particular crime, but not whether the individual was convicted. To determine this, the
NICS examiner will need to contact the appropriate state. If the FBI has not made a
determination after three business days, the FFL may, but is not required to, transfer
the firearm.



U.S. Department of Justice                                                       5
Office of the Inspector General
Evaluation and Inspections Division
This situation occurred with 73,500 background checks in CY 2002 (1.73
percent of the total processed) and with 84,520 background checks in CY
2003 (1.93 percent of the total processed).10 The NICS examiner
continues to research the case to determine whether any prohibitive
criteria exist. If the person is subsequently found to be prohibited from
possessing a firearm and the NICS examiner determines that the FFL
transferred the firearm, the NICS examiner issues a “delayed denial.”

      FFLs transferred firearms to persons that the FBI identified as
prohibited in 3,429 cases in CY 2002 and 3,601 cases in CY 2003.
During these two years, over 60 percent of firearm transfers went to
persons prohibited because they were convicted of or were under
indictment for felonies or were convicted of misdemeanor crimes of
domestic violence. See Table 2 for details.

       Table 2: Firearm Retrieval Referrals – Reasons for Denials

                                   CY 2002        CY 2003
       Reason                 Number Percent Number Percent
       Felony-Related           1,203    35.1  1,140    31.7
       Domestic Violence        1,052    30.7  1,170    32.5
       Fugitives                  421    12.3    482    13.4
       Drug Addicts               307     9.0    418    11.6
       State Prohibitions         146     4.3    200     5.6
       Protective Order            65     1.9     57     1.6
       Aliens                      43     1.2    113     3.1
       Mentally Ill                14     0.4      8     0.2
       Other*                       5     0.1      4     0.1
       Dishonorable Discharge       3     0.0      9     0.2
       Renounced Citizenship        0     0.0      0     0.0
       Unknown                    170     5.0      0     0.0
       Total                   3,429    100.0 3,601    100.0
       Source: FBI NICS

       * “Other” includes disqualifiers identified during research that were not
         included in the existing databases (e.g., when the NICS examiner calls
         a locality, he or she may find out that there is an active warrant or an
         arrest exists that had not been entered into NCIC or III).

        10 According to the FBI, default proceeds occur primarily because many states

either do not have automated criminal history records or their automated criminal
history records do not show the disposition (e.g., convictions or acquittals) of felony
arrests, and manual efforts to determine such information took longer than three
business days.

U.S. Department of Justice                                                         6
Office of the Inspector General
Evaluation and Inspections Division
      The FBI refers all denials, including both delayed denials and
standard denials (prohibited persons who attempted to purchase a
firearm but were denied within three business days) to the ATF’s Brady
Operations Branch.

Department of Justice (DOJ) Components Involved in the NICS
Process

       The FBI

      The FBI operates and maintains the NICS. According to its
mission statement, the FBI’s NICS Section is responsible for “aggressively
reviewing and analyzing available records in accordance with the
provisions of the Brady Handgun Violence Prevention Act of 1993 and
regulations thereunder.”

      The NICS Section is one component within the FBI’s Criminal
Justice Information Services (CJIS) Division. The CJIS, located in
Clarksburg, West Virginia, also includes program operations pertaining
to NCIC, Uniform Crime Reporting, and fingerprint identification.

       As of January 2004, the NICS Section consisted of 513 employees
and was in the process of adding 35 employees. According to FBI
officials, NICS staffing generally has remained stable since the NICS was
implemented. NICS examiners are available to accept calls seven days a
week, from 8 A.M. to 1 A.M., closing only on Christmas day.

       The monthly workload has remained stable since the NICS was
first implemented, peaking during September through December and
declining during May through July. FBI NICS officials stated that they
are able to predict the hourly volume of calls and therefore are able to
ensure that the phone lines are adequately staffed during peak hours
and to rotate their staff to other tasks during slow periods. The busiest
day of the year for firearm sales typically is December 23, which in 2003
hit a new high with 54,000 NICS transactions.

       The ATF Brady Operations Branch

      The ATF’s Brady Operations Branch in Martinsburg, West Virginia,
reviews NICS denials received from the FBI and refers denials that
require additional investigation to the appropriate ATF division office.
The Brady Operations Branch also serves as a liaison with the FBI on


U.S. Department of Justice                                           7
Office of the Inspector General
Evaluation and Inspections Division
NICS issues, responds to firearms dealer inquiries regarding the NICS,
and analyzes data from NICS denials to identify trends of illegal firearms
trafficking and other crimes.

       As of April 2004, the Brady Operations Branch consisted of 14
employees and 1 contractor, including 7 specialists who review FBI NICS
referrals. Each specialist is responsible for the denials pertaining to
specific ATF divisions.

       The FBI electronically transmits both delayed denials and standard
denials daily to the Brady Operations Branch. The Branch’s specialists
process delayed denials immediately and forward them to the field. To
do this, a specialist electronically accesses the transaction screen to
review the FBI notes on the denial; contacts the FFL for a copy of ATF
Form 4473; and, if necessary, accesses various law enforcement
databases to verify criminal history data. The specialist also contacts
local law enforcement, court clerks, or others for copies of supporting
documentation. The specialist then adds any applicable notes pertaining
to the denial and saves the referral. This action automatically creates a
case in NFORCE, the ATF’s electronic case management system, and
transfers it to the NICS coordinator at the appropriate ATF field division
office. The specialist also faxes or mails to the appropriate NICS
coordinator copies of documents obtained from the FFL or local criminal
justice or other public agencies. Because delayed denials require that
the ATF retrieve the firearm, all cases are forwarded to the field for
immediate action.

       Standard denials are processed in the order received. In contrast
to the delayed denials, only a small percentage of standard denials are
forwarded to the field because of the large volume (approximately 60,000
a year) and limited investigative resources. As a result, the specialists
forward only those cases that have prosecutorial merit.11 These cases
are processed and forwarded in a manner similar to the delayed denials.

      During CY 2002, the Brady Operations Branch forwarded 7,897
(13.2 percent) of the 59,778 standard denials it processed to the field.
During CY 2003, the Branch forwarded 5,606 (10.7 percent) of the
52,606 standard denials it processed to the field. The proportion of

       11 To determine prosecutorial merit, the Brady Operations Branch uses criteria

the ATF field divisions obtain from the individual USAOs in their regions. In general,
cases determined to have prosecutorial merit are those involving recent or multiple
offenses, violent offenders, or patterns of escalating violence.



U.S. Department of Justice                                                        8
Office of the Inspector General
Evaluation and Inspections Division
standard denial referrals forwarded to those not forwarded is shown in
Figure 2.12

   Figure 2: Number of Standard Denials Either Closed by the ATF
   Brady Operations Branch or Sent to the ATF Field Divisions for
                           Investigation
                       CY 2002 and CY 2003




                      Source: ATF Brady Operations Branch

       ATF Division Offices

      During CYs 2002 and 2003, the Brady Operations Branch
forwarded 6,286 delayed denial referrals and 13,503 standard denial

       12  The Brady Operations Branch usually receives only those denials processed
by the FBI, not by POC states. Therefore, those ATF division offices encompassing
states for which the FBI performs all NICS checks, such as the New Orleans division
office, have a greater volume than those encompassing states for which the FBI
performs only some of the NICS checks. For an unknown reason, during CY 2002 and
2003, the Brady Operations Branch received two denials from California (a POC state).
See Appendix I for the level of participation by individual states. See Appendix II for
details on the number of denials processed and referred to the division offices by the
Brady Operations Branch.



U.S. Department of Justice                                                        9
Office of the Inspector General
Evaluation and Inspections Division
referrals to 17 of its 23 division offices for further investigation. Figure 3
shows the number of each type of referral sent to each ATF division
office.13

                         Figure 3: Number of NICS Cases Received by the ATF Field
                              Divisions From the ATF Brady Operations Branch
                                           CY 2002 and CY 2003


                        2,500                                          Refe rral St at us
                                                                       REF ER - D E LAYE D
                                                                       REF ER - S TAN DAR D



                        2,000
  Number of Referrals




                        1,500




                        1,000




                         500




                           0
                                    K
                                     Se a s
                                     N tle ity
                                     C Or
                                     St mb n s


                                     D to
                                     Lo s
                                     C s vi
                                     P lo t
                                     N n ix
                                     D vi l
                                     N o it
                                     Ba Yo
                                     Bo m o
                                     T a on

                                     M pa
                                     H ul
                                       an


                                       ew
                                       o l le




                                       al n


                                       h a lle
                                       h o te
                                       as
                                       e t le
                                       ew




                                       ia
                                       ou



                                        ui
                                        at C




                                        Pa u s




                                        l t i rk
                                        s t re
                                        m
                                          u




                                          la




                                           r




                                           m
                                            s




                                            r
                                            e
                                            h
                                             s




                                              i
                                                a




                                              A TF Field D ivisio ns

                                Source: ATF Brady Operations Branch

      Each ATF division office designates a NICS coordinator to process
the referrals from the Brady Operations Branch. Eleven of the NICS
coordinators (65 percent) at the 17 division offices that receive referrals


          Six of the ATF field divisions (Atlanta, Chicago, Los Angeles, Philadelphia, San
                           13

Francisco, and Washington, D.C.) are not included in the chart. These divisions
encompass only POC states and therefore received no NICS referrals from the Brady
Operations Branch during our review period. Although Florida is categorized as a POC
state, the FBI sometimes conducts NICS checks for pawnbrokers (In Florida,
pawnbrokers are authorized, but not mandated to conduct a NICS background check at
the time of the pawn). Therefore the ATF division offices in Miami and Tampa do receive
some NICS referrals. See Appendix III for details on the number of referrals sent to
each ATF division office.

U.S. Department of Justice                                                                    10
Office of the Inspector General
Evaluation and Inspections Division
are special agents.14 All NICS coordinators have other duties; 12 of the
17 NICS coordinators told us that they spend less than 30 percent of
their time on NICS activities.

       Each NICS coordinator conducts further reviews of the referrals
and disseminates them to the appropriate field or satellite office.15 The
extent of the additional review varies among the division offices. At some
division offices, the NICS coordinator only identifies the appropriate field
or satellite office and forwards the referral to that office. At other division
offices, the NICS coordinator immediately forwards the delayed denials to
the appropriate field or satellite office but further screens the standard
denials to ascertain prosecutorial merit, using written or verbal USAO
criteria or the NICS coordinator’s knowledge of the types of cases that
have been prosecuted by the USAOs.

       ATF Field and Satellite Offices

      When the division NICS coordinator determines that a referral
requires a retrieval or merits investigation, the coordinator electronically
transfers the referral to the resident agent in charge (RAC) or group
supervisor at the appropriate field or satellite office, who then usually
assigns the referral to a special agent for investigation.

       For delayed denials, an ATF special agent at the field or satellite
office is required to retrieve the firearm from the prohibited person.
Although this action is termed a “retrieval,” it is rare that the special
agent physically retrieves the firearm. This action is only taken when the
prohibited person is considered dangerous or when the prohibited person
is uncooperative in disposing of the firearm. Other actions categorized
by the ATF as retrievals include voluntary return of the firearm by the
prohibited person to the FFL, abandonment of the firearm by the
prohibited person, seizure by local law enforcement (which usually
occurs when the prohibited person has committed a crime), or a third
party transfer (in which a prohibited person is permitted to transfer the
firearm to a third party of his or her choosing, provided that the third
party does not reside with the prohibited person and agrees not to



       14 Of the remaining six coordinators, two are investigative analysts or assistants,

two are intelligence research specialists, one is an inspector, and one is a secretary.

        15 The ATF has 194 investigative field offices or groups, 56 satellite offices, and

23 intelligence groups.



U.S. Department of Justice                                                             11
Office of the Inspector General
Evaluation and Inspections Division
provide the prohibited person with access to the firearm). The ATF may
refer these prohibited persons to USAOs for prosecution, depending on
the circumstances of the cases.16

       For standard denials, the ATF investigates only those cases that
have prosecutorial merit. In those cases, the prohibited persons may be
referred to USAOs for prosecution, depending on the outcome of the
investigation.

       The USAOs

      The 94 USAOs prosecute criminal violations of federal laws. In
NICS cases, prospective firearm purchasers are normally charged with
intentionally lying on ATF Form 4473 by not indicating their prohibited
status. NICS cases are generally prosecuted under two statutes: Title 18
U.S.C. 922(a)(6) and Title 18 U.S.C. 924(a)(1)(A). Title 18 U.S.C. 922(a)(6)
states that it is unlawful:

       for any person in connection with the acquisition or
       attempted acquisition of any firearm or ammunition from a
       licensed importer, licensed manufacturer, licensed dealer, or
       licensed collector, knowingly to make any false or fictitious
       oral or written statement or to furnish or exhibit any false,
       fictitious, or misrepresented identification, intended or likely
       to deceive such importer, manufacturer, dealer, or collector
       with respect to any fact material to the lawfulness of the sale
       or other disposition of such firearm or ammunition under
       the provisions of this chapter.17

       Title 18 U.S.C. 924(a)(1)(A) states that whoever “knowingly makes
any false statement or representation with respect to the information
required by this chapter to be kept in the records of a person licensed
under this chapter or in applying for an license or exemption or relief
from disability under the provisions or this chapter” shall be fined under
this title, imprisoned not more than five years, or both.




          16 For example, cases involving old or nonviolent prohibiting factors or in which

it is difficult to prove that the individual intentionally lied on the ATF Form 4473 are not
likely to be referred for prosecution.

       17 According to Title 18 U.S.C. 924(a)(2), the penalty for violations of Title 18

U.S.C. 922(a)(6) is a fine, imprisonment of not more than ten years, or both.

U.S. Department of Justice                                                            12
Office of the Inspector General
Evaluation and Inspections Division
       Table 3 shows the number of referrals USAOs received under those
two statutes, case filings (instances in which formal charges were filed),
and case terminations (convictions, acquittals, or dismissals) during
fiscal years (FY) 2002 and 2003. The referrals include ATF referrals of
Brady Act cases identified through the NICS. According to the Executive
Office for U.S. Attorneys (EOUSA), these referrals also include
prosecutions of illegal gun traffickers and “straw purchasers” (individuals
with clean records who purchase firearms for prohibited individuals).
The EOUSA’s case management system, the Legal Information Office
Network System (LIONS), categorizes case data by federal statute and
fiscal year, and therefore we were unable to obtain specific data related
to NICS cases for CYs 2002 and 2003.

Table 3: Referrals, Case Filings, and Case Terminations Under Title
 18 U.S.C. 922(a)(6) and Title 18 U.S.C. 924(a)(1)(A), By Defendant
                       FY 2002 and FY 2003

                                FY 2002 FY 2003 Totals
               Referrals            922    1,059 1,981
               Cases Filed          772      825 1,597
               Cases Terminated     734      686 1,420
               Source: Executive Office for U.S. Attorneys

       The prosecutorial results of ATF investigations of NICS referrals
initiated during CYs 2002 and 2003 are shown in Table 4. This table
shows the number of defendants referred to the USAO, accepted by the
USAO for prosecution, prosecuted, and found guilty.

       Table 4: Prosecutorial Results of ATF NICS Cases Referred
                         CY 2002 and CY 200318
             Category                CY 2002 CY 2003 Totals
             Defendants Referred          141       89    230
             Defendants Accepted          116       69    185
             Defendants Prosecuted         91       63    154
             Guilty Verdicts               90       63    153
               Source: ATF


         18 “Defendants referred” represents those persons referred by the ATF to a USAO

for prosecution. “Defendants accepted” represents persons whose cases were accepted
by a USAO or who were indicted by a grand jury. “Defendants prosecuted” represents
those defendants whose charges were not dismissed after indictment. “Guilty verdicts”
represents those defendants who were found guilty, pled guilty, or pled nolo contendere
(that is the defendant did not accept or deny responsibility for the charges but agreed to
accept punishment).

U.S. Department of Justice                                                          13
Office of the Inspector General
Evaluation and Inspections Division
Scope and Methodology of the OIG Review

       We conducted our fieldwork from November 2003 through March
2004. Our review encompassed only those NICS background checks
performed by the FBI, not by the POC states. At ATF headquarters, we
interviewed officials from the Office of Firearms, Explosives, and Arson
and the Office of Field Operations and obtained workload statistics on
the ATF’s field office operations.

       In January 2004, we visited the FBI’s NICS Section in Clarksburg,
West Virginia. We toured the facility, obtained workload data, and
interviewed relevant officials.

      During January 2004, we also visited the ATF’s Brady Operations
Branch in Martinsburg, West Virginia. While on site, we interviewed the
Branch Chief, the specialists and their supervisor, the information
technology manager, and others. We also obtained workload statistics.
In addition, we reviewed a random sample of 100 denial transactions
forwarded to the ATF Brady Operations Branch by the FBI during CYs
2002 and 2003 to determine whether the FBI was referring denials to the
ATF on a timely basis and whether the Brady Operations Branch
specialists were processing denials on a timely basis, properly referring
denials to ATF field offices in accordance with USAO criteria, and
adequately documenting the basis for their decisions.

       During February 2004, we visited ATF division offices and USAOs
in New Orleans, Louisiana; Kansas City, Missouri; St. Paul, Minnesota;
and Columbus, Ohio. At the ATF division offices, we interviewed the
special agent in charge (SAC); the assistant special agents in charge
(ASAC); the NICS coordinator; a group supervisor or RAC located in, or
responsible for, each state within the division (we selected the field office
with the largest volume of NICS referrals in that state); and other
officials. At each division office, we reviewed a random sample of 50
standard denials and 50 delayed denials that had been forwarded to the
division office by the Brady Operations Branch during CYs 2002 and
2003. For the standard denials, we reviewed whether the division or field
office’s decision to close the case or initiate an investigation was made in
accordance with USAO guidelines and whether the investigation was
opened and completed on a timely basis. For the delayed denials, we
reviewed whether the investigation was opened and closed on a timely
basis, the firearm was recovered from the prohibited person, the firearm
was used in the commission of a crime prior to recovery, and the decision


U.S. Department of Justice                                             14
Office of the Inspector General
Evaluation and Inspections Division
to refer the case for prosecution was made in accordance with USAO
guidelines. At the USAOs, we interviewed U.S. Attorneys (USA) and
Assistant U.S. Attorneys (AUSA) responsible for prosecuting NICS cases.

      During March 2004, we called the designated NICS coordinators
assigned to the 19 ATF division offices that we did not visit to obtain
information on procedures, training, and workloads.

      We also obtained information and statistics from the EOUSA and
the ATF on referrals and prosecutions of NICS cases.




U.S. Department of Justice                                           15
Office of the Inspector General
Evaluation and Inspections Division
                            RESULTS OF THE REVIEW


The ATF Does Not Always Make Timely Firearms Retrievals

       When firearms are transferred to prohibited persons, it is
       important that the ATF retrieve these firearms
       expeditiously for public safety. We found, however, that
       although the ATF is generally successful in retrieving
       these firearms, the retrievals are not always timely.19 As
       a result, there is an increased risk that these prohibited
       persons may use the illegally obtained firearms to harm
       others or to otherwise commit a crime.

       Of the 188 delayed denial referrals in our sample for which
investigations were completed, the ATF resolved 110 (59 percent) of the
cases within a month and 158 (84 percent) within three months.20
Results varied during the 1-month resolution period among the four
divisions included in our sample: 74 percent in the Kansas City division,
61 percent in the Columbus division, 57 percent in the St. Paul division,
and 43 percent in the New Orleans division.21

      Because some cases can reasonably take longer than a month to
resolve, we reviewed the investigative case files to determine whether any
showed delays in case resolution. We defined delays as two weeks or
more to initiate an investigation or two weeks of unexplained inactivity
once the investigation had begun. Using these criteria, we determined

       19 The ATF retrieved the firearm in 97 percent of the cases in our sample that

required a firearm retrieval.

       20 We were usually unable to determine the date that the division NICS
coordinator transferred the case to the field office. Therefore, we used the date the
delayed denial was received by the division office as the start date. We considered
resolution to occur when either the firearm was retrieved or the special agent
determined that a retrieval was not required (i.e., the special agent determined that the
individual was not prohibited or that the FFL did not transfer the firearm and therefore
a retrieval was unnecessary). Also, our sample of 200 delayed denials included 9 cases
that were in the process of being investigated and three cases that were denials based
on a state, not federal, prohibition (in these cases the retrievals were conducted by the
appropriate state). We did not include these 12 cases in the timeliness statistics.

        21 The ATF no longer has timeliness standards for firearm retrievals. The ATF

special agents we spoke with generally thought that 30 days was a reasonable
expectation for retrieval.

U.S. Department of Justice                                                         16
Office of the Inspector General
Evaluation and Inspections Division
that delays occurred in 65 (35 percent) of the 188 cases. Of the four
divisions in our sample, we determined that delays occurred in 49
percent of our New Orleans sample (24 cases), 37 percent of our St. Paul
sample (17 cases), 30 percent of our Columbus sample (14 cases), and
21 percent of our Kansas City sample (10 cases).

     Figure 4 shows the amount of time it took the ATF to resolve the
188 delayed denials and the number of cases in which delays occurred.

                 Figure 4: Processing Times and Timeliness
                         Sample of Delayed Denials


                                           110
                                 120

                                 100
                Number of
                                 80
                 Sampled
                                                    48
                  Cases          60                      37

                                 40
                                                              12 12   14 12
                                             0                                3 3   1 1
                                 20

                                  0
                                       1 Month    2-3    4-5    6-9   10-12 Over 12
           Processing Time for                   Months Months Months Months Months
           Sampled Cases
           Number of Cases Not
           Processed Timely                          Processing Times

       Source: OIG Sample

       Cases in which delays occurred included the following examples:

       •   A case involving a person prohibited from possessing firearms
           due to a felony conviction for second degree battery was referred
           by the Brady Operations Branch to the appropriate division
           office on November 16, 2002, for a firearms retrieval. According
           to the case management log, the case was opened and closed on
           September 23, 2003, more than 10 months later. On that date,
           the ATF field office verified that the subject was a prohibited
           person and the subject was located and interviewed. The
           subject claimed that his firearm had been stolen from his
           vehicle in March or April 2003. He had not reported the theft to
           local authorities.



U.S. Department of Justice                                                                17
Office of the Inspector General
Evaluation and Inspections Division
       •   A case involving a person prohibited from possessing a firearm
           due to a misdemeanor domestic violence conviction was referred
           by the Brady Operations Branch to the appropriate division
           office on November 28, 2002. The case was initially handled on
           a timely basis – during December the case agent verified that
           the subject was prohibited, sent a letter to the subject, and
           spoke with the subject by telephone. The subject agreed to
           transfer the firearm to a third party not yet identified. The
           subject was never heard from again. The case agent attempted
           to contact the subject by telephone in February and May 2003.
           A visit was not made to the subject’s residence until December
           2003 (the subject was not home), a year after the initial referral.
           As of February 2004, the firearm had not been retrieved.
           According to ATF division office officials, some of the delay can
           be attributed to the original case agent’s assignment to military
           duty and the failure of the field office supervisor to reassign the
           agent’s caseload to other agents on a timely basis.

       •   A case involving a person prohibited from possessing a firearm
           due to a misdemeanor domestic violence conviction was referred
           by the Brady Operations Branch to the appropriate division
           office on October 31, 2002, for a firearms retrieval. According
           to the case management log, the RAC e-mailed the case agent
           on December 19, 2002, inquiring about the apparent inactivity
           on the case. Two months later, on February 25, 2003, the case
           agent sent a letter to the subject. The special agent first spoke
           to the subject on April 2, 2003, four months after the case was
           received, to discuss the subject’s disposal of the firearm.

       •   A case involving a person prohibited from possessing a firearm
           due to a felony conviction for vehicular manslaughter was
           referred by the Brady Operations Branch to the appropriate
           division office on August 3, 2002, for a firearms retrieval.
           According to the case management log, no action was taken
           until eight months later on April 14, 2003, when a database
           query was run to locate the subject’s current residence.
           According to the management log, the delays were due to the
           agent’s criminal caseload. The special agent visited the subject
           on June 3, 2003, and found that the subject possessed five
           other long guns, all of which were subsequently transferred to
           his daughter’s possession.




U.S. Department of Justice                                              18
Office of the Inspector General
Evaluation and Inspections Division
      Our review identified a number of reasons for these delays, as
discussed below.

       Delayed Denials Are Not Forwarded Directly to Field Offices

       The Brady Operations Branch does not electronically transfer
delayed denials directly to the appropriate ATF field or satellite office for
investigation. Instead, it transfers the delayed denials to one of 17 ATF
division offices, which in turn is supposed to immediately transfer them
to the appropriate ATF field or satellite office. Not only does this process
create an unnecessary step, but it also delays initiating a firearm
retrieval when the NICS coordinator does not transfer these cases timely.

       In addition, because carrying out NICS responsibilities is a part-
time function for the NICS coordinators, they do not always access the
system on a daily basis. As a result, it can be several days before a
coordinator notices the delayed denial. In addition, unless the division
has assigned a back-up coordinator, absences by the coordinator due to
other assignments or annual or sick leave can result in additional delays.
In fact, at one of the divisions we visited, the field offices attributed
excessive delays in 14 of the 100 cases in our sample to delays on the
part of the NICS coordinator in forwarding the cases to the field. Of
these cases, five involved firearm retrievals. The amount of time it took
to forward these cases to a field office ranged from 3 months to 13
months.

       Delays in referring these denials to the field also diminish the
sense of urgency among special agents. A group supervisor at one of the
field offices that had not been receiving denial referrals timely stated that
the attitude among his special agents was that if delayed denials were
not a priority for the division office, why should they be a priority for the
field offices.

      We discussed with Brady Operations Branch officials the
alternative of bypassing the division offices and referring the delayed
denials directly to the field and satellite offices. The officials agreed that
this would improve the timeliness of the process, but stated that
NFORCE is technically unable to transfer these cases to the field offices.
They further stated that a couple of years ago the ATF considered
developing such a direct case system, but the project was dropped due to
a lack of funding.




U.S. Department of Justice                                               19
Office of the Inspector General
Evaluation and Inspections Division
       NICS Subjects Are Not Considered Dangerous

       The special agents we spoke with generally commented that they
do not consider the vast majority of NICS referral subjects a danger to
the public because the prohibiting factors are often minor or based on
incidents that occurred many years in the past. For example, one group
supervisor cited a retrieval case in which the person was prohibited from
owning a firearm because of a felony conviction for stealing four hubcaps
from a car. In another example, a Brady Operations Branch specialist
cited a case where the person was prohibited due to a 1941 felony
conviction for stealing a pig. We also were told that “bad guys” generally
do not purchase their firearms through legitimate dealers; instead, they
have someone with a clean record purchase the firearm for them (known
as a “straw purchase”) through an FFL, buy a firearm on the black
market, or purchase the firearm at a flea market or gun show from a
non-FFL.22 Because agents do not consider most NICS subjects
dangerous, they do not consider it urgent to retrieve the firearms.

       Some of the 500 NICS cases we reviewed supported this
perception.23 Of the 229 instances in our samples for which we could
identify the date of the crime, 110 (48 percent) of the crimes had
occurred at least 5 years previously (30 of these, or 13 percent, had
occurred at least 20 years previously). These cases included a breaking
and entering from 1958, a check forgery from 1959, a burglary from
1968, an attempted burglary from 1963, and a domestic violence case
from 1964. Further, some of the prohibiting factors in our sample were
for nonviolent crimes such as:

       •     Fugitive warrants for failure to pay a shoplifting fine, passing
             bad checks, or traffic violations, and

       •     Felony convictions for shoplifting, theft of public benefits,
             fraudulent use of a credit card, forgery, failure to pay child
             support, or sales tax evasion.

        It is understandable that ATF special agents prioritize their
workloads by focusing on subjects who are perceived as a greater danger
to the community. However, each retrieval represents a person who
illegally possesses a firearm. Because someone has committed only

       22   Only FFLs are required to perform NICS checks.

      23 This includes 400 NICS cases we reviewed at the four ATF division offices and

100 NICS cases we reviewed at the Brady Operations Branch.

U.S. Department of Justice                                                      20
Office of the Inspector General
Evaluation and Inspections Division
nonviolent crimes in the past does not mean that he or she is not
capable of using the illegally obtained firearm to commit a violent crime.

       In fact, our sample includes a case in which a person who was
prohibited from owning a firearm because of a nonviolent crime
(possession of marijuana) subsequently used the 9mm pistol he had
purchased to commit a violent crime. In this instance, an ATF field office
special agent had initiated a timely investigation, but placed it on hold
after a month because he could not locate the subject (the subject
provided a fictitious address to the FFL). Eight months later, the local
police department notified the special agent that the subject had been
arrested for aggravated assault using the illegally obtained firearm.

       Staffing and Geographic Constraints Exist

       All 10 of the division office SACs and ASACs and 10 of the 13 field
office RACs and group supervisors we interviewed stated that they had
insufficient resources to investigate the volume of NICS referrals their
offices received. This is particularly true at the satellite offices, often
staffed by only one or two special agents. For example, the St. Paul SAC
noted that the satellite office in Missoula, Montana, is staffed by one
agent who currently has a backlog of about 30 NICS cases in addition to
a substantial criminal caseload.

       Because of resource limitations, ATF special agents often are
pulled from processing NICS cases to work on arson, firearms trafficking,
and explosion cases. To reduce NICS case backlogs, the field offices
either periodically shut down all other operations for a month or more or
detail special agents from the division offices or other field offices to help
out.

      NICS investigations are labor- and time-intensive. The special
agent must first determine whether the person is actually prohibited
from possessing a firearm and whether the firearm was transferred to the
person. This requires examining criminal histories, obtaining court
records, obtaining contact names and addresses, attempting to contact
the person, confirming those instances in which the person either
returned the firearm to the FFL or transferred the firearm to a third
party, and on occasion contacting local law enforcement agencies to
determine whether the person is a threat.

      Along with staffing shortages, the large geographic territories
covered by some of the ATF field offices contribute to the delays in


U.S. Department of Justice                                               21
Office of the Inspector General
Evaluation and Inspections Division
retrieving firearms. Some of the larger states contain few ATF field
offices. The special agents generally retrieve more firearms in rural areas
than in urban areas where ATF field offices are often located. When a
field office territory covers hundreds of miles, a firearm retrieval can
consume a special agent’s entire day. Because of potential danger, two
special agents are required to perform a retrieval. Because of these
factors, special agents sometimes wait until they have multiple retrievals
or other investigations to conduct in an area.

       The lack of resources to investigate all NICS cases has been a
continuing problem. An ATF policy memorandum dated
December 5, 2000, stated, “Since the full implementation of the Brady
Bill in November 1998, we have experienced a critical shortage of
investigative resources necessary for meeting our NICS/Brady
investigation and other statutory responsibilities.” In November 2001,
the Department of the Treasury’s OIG report on the ATF’s NICS program
noted staffing deficiencies related to the large influx of NICS cases and
recommended that the ATF develop case workload studies and staffing
models to assess and respond to the NICS program’s impact on field
division resources.24 Although the ATF agreed in its response to
implement this recommendation, our review found that the problems
detailed in the Treasury OIG report continue to exist.

      One of the field offices in an ATF division we visited is using its
investigative analyst, who is supervised by the RAC, to perform
administrative tasks associated with a NICS investigation, such as
sending initial contact letters to prohibited persons who obtained
firearms and making the arrangements for third party transfers. Special
agents are needed only when a firearm retrieval is required. According to
the RAC, using an investigative analyst for these tasks has significantly
reduced the NICS special agent workload in his field office.

       Because of the shortage of support personnel in many field offices,
using investigative analysts to work NICS cases usually is not feasible.
In lieu of using support personnel to assist with NICS cases, special
agents suggested hiring contractors, preferably retired ATF special agents
or ex-law enforcement personnel, to perform these functions. We believe


       24 See Protecting the Public: Bureau of Alcohol, Tobacco and Firearms Could

Improve its National Instant Criminal Background Check System Program, Department of
the Treasury, Office of the Inspector General, OIG-02-004, November 1, 2001. The ATF
was located within the Department of the Treasury until January 24, 2003, when the
majority of the ATF was transferred to the DOJ.

U.S. Department of Justice                                                    22
Office of the Inspector General
Evaluation and Inspections Division
this merits consideration, since requiring special agents to perform these
primarily administrative duties is not an efficient use of resources.

       No Timeliness Standards Exist

       We found that the ATF does not have timeliness standards for
firearm retrievals. When the NICS was first initiated, the ATF required
its agents to initiate a delayed denial investigation and retrieve the
firearm within five days of receiving the case. In fact, the ATF’s
procedural guidelines, “NFORCE and NICS/Brady Referrals,” still refer to
these as “5-day turn-around” cases. Some of the special agents in the
field stated this standard was unreasonable. A June 17, 1999, ATF
policy memorandum stated, “In responding to the delayed referrals the 5-
day reporting requirement is no longer in effect.” The memorandum did
not establish different standards, instead stating, “Priority consideration
should be given to referrals where a firearm has been transferred.” The
memorandum further stated, “Since the persons receiving the firearm in
these instances maybe [sic] a prohibited person, it is imperative that
investigations be initiated per established criteria in a timely manner.”

       Because the retrieval of firearms from prohibited persons is an ATF
priority, we believe that the ATF should establish timeliness performance
standards and track field office performance. Due to the lack of
standards and timeliness monitoring, ATF management is unable to
quickly identify and address delays in retrieving firearms.

       ATF management disagreed that timeliness standards should be
established for the completion of a case. Instead, subsequent to our
review, they revised the written procedures to state, “It is imperative that
delay denials be handled promptly and not be allowed to linger without
investigative action.” We do not believe that this general admonition is
sufficient. In our opinion, the ATF should establish standards to ensure
timely firearm retrievals.

RECOMMENDATIONS

       Recommendation 1: The ATF should modify its NFORCE system
to allow the Brady Operations Branch to refer delayed denials directly to
the appropriate ATF field office.

     Recommendation 2: The ATF should use non-agent personnel to
handle the administrative tasks related to NICS cases.



U.S. Department of Justice                                             23
Office of the Inspector General
Evaluation and Inspections Division
     Recommendation 3: The ATF should establish timeliness
standards for firearm retrievals and develop a system for ATF field office
management to monitor and report on compliance with these standards.


Firearms Retrieval Procedures Are Inadequate

       The ATF’s use of a contact letter requesting that a
       prohibited person voluntarily dispose of the firearm does
       not always result in timely retrievals because of delays
       in sending the letters and the lack of a time frame in
       which the recipient must respond. The ATF also fails to
       monitor responses and to take timely action when a
       prohibited person does not respond to the letter. In
       addition, the ATF does not adequately document all
       retrievals or, in the case of third party transfers, does
       not always document that the third party is not
       prohibited from possessing a firearm. As a result, there
       is not adequate verification that retrievals are performed
       in accordance with ATF procedures.

       Deficiencies in the Use of Initial Contact Letters

      In many cases, giving a prohibited person the opportunity to
voluntary surrender an improperly transferred firearm before sending an
agent to retrieve it is an efficient use of ATF resources. We noted,
however, that ATF field offices did not always send contact letters on a
timely basis, did not specify a time frame for the person to respond, and
did not always take action timely if there was no response.

      ATF policy allows a standardized “contact letter” for prohibited
persons who inappropriately received firearms as a result of a NICS
delayed denial. The contact letter advises the recipient that records
indicate that he or she is prohibited from possessing a firearm and asks
the person to contact the ATF field office regarding options for lawfully
disposing of the firearm. The contact letter is not used if the
investigation is likely to result in prosecution of the recipient of a firearm.

      At the four ATF divisions we visited, we found a wide variance in
the use of contact letters. Overall, in the 123 cases in our sample that
required a firearm retrieval, 31 initial contact letters (25 percent of the




U.S. Department of Justice                                               24
Office of the Inspector General
Evaluation and Inspections Division
cases) were sent.25 Of the four ATF divisions in our sample, special
agents in the St. Paul division used initial contact letters most often (12
letters representing 40 percent of their required retrieval cases), and
special agents in the Kansas City division used initial contact letters
least often (2 letters representing 7 percent of their required retrieval
cases).

       The general consensus of the division and field office agents we
interviewed was that contact letters were effective in retrieving firearms.
In their opinion, most of the persons they contacted did not realize that
they were prohibited from owning firearms and were cooperative when
asked to dispose of the firearms. One group supervisor stated that when
his office sent a contact letter, the prohibited person responded 90
percent of the time. Another group supervisor noted that one of the
satellite offices had a 100 percent success rate with contact letters. In
our sample, 16 of the 31 contact letters sent (52 percent) resulted in the
person promptly disposing of the firearm.

      Because of this successful response rate, sending contact letters
can be an effective and efficient way for ATF to retrieve firearms.
However, to be most effective, the ATF should send the letters promptly,
specify a time frame for response, and take timely action if there is no
response. We identified deficiencies in all of these areas.

       We found cases with extensive delays between the time when the
division office received the referral and when the initial contact letter was
sent. Of the 29 initial contact letters in our sample for which we were
able to determine the dates they were sent, 8 (28 percent) were sent a
month or more after the case was received by the field. In four of these
cases, the delays were slightly over a month; in the other four cases, the
delays ranged from 48 days to 202 days. The latter cases are described
in Table 5.

       25  Of our total sample of 200 delayed denials, only 123 required a firearm
retrieval. Of the remaining 77 cases, 74 did not require a retrieval because ATF special
agents subsequently determined upon further research either that the person was not
prohibited from owning a firearm or that the FFL had not transferred the firearm. In
some cases, the FFL will contact the person when the FFL is informed by the NICS
examiner of the delayed denial, and the person will voluntarily return the firearm to the
FFL. The remaining three cases were forwarded to the Columbus division office by the
Brady Operations Branch “for investigative purposes only.” According to a Brady
Operations Branch specialist, the state of Ohio prohibits anyone with a drug conviction
from possessing a firearm. Because these denials are based on state prohibitors, not
federal prohibitors, the state of Ohio is responsible for the firearms retrieval, not the
ATF.

U.S. Department of Justice                                                         25
Office of the Inspector General
Evaluation and Inspections Division
         Table 5: Examples of Delays in Sending Initial Contact
                               Letters

Amount of
  Delay        Reason for Prohibition               Reason for Delays
 48 days       Misdemeanor domestic                 Unable to determine
               violence conviction
  62 days      Felony conviction (possession        Case was assigned to single-
               of sawed-off shotgun)                agent satellite office
 185 days      Misdemeanor domestic                 Field office cited other
               violence conviction (beat            investigative priorities as the
               pregnant wife)                       reason for the delay
 202 days      Felony indictment (criminal          Field office cited other
               mischief)                            investigative priorities as the
                                                    reason for the delay
Source: OIG Sample

       In addition, the ATF’s standard contact letter does not specify a
time frame within which the firearm’s owner must contact the ATF. The
letter states only that the recipient should contact the ATF “as soon as
possible.” Further, the ATF has no guidelines for how long the field
should wait before following up. One group supervisor we spoke with
had established his own policy, requiring that his agents take action to
retrieve a firearm if the person did not respond within 48 hours. All the
other field offices we contacted indicated that the individual case agent
decided when to follow up. In addition, we found that in 7 of the 31
cases (23 percent), the field office sent a second letter.

       To maximize the effectiveness of contact letters, the ATF needs to
revise its letters to include a response time frame, improve its timeliness
in sending the letters, monitor the response time, and take timely action
when the letter is not effective in garnering a response.

      Special Agents Do Not Always Document Third Party Transfers,
Returns of Firearms to the FFL, and Seizures of Firearms by Local Law
Enforcement

      The ATF rarely seizes a firearm from a prohibited person.26 In
most instances, the prohibited person opts to transfer the firearm to a
third party or return the firearm to the FFL. In some cases, the
prohibited person voluntarily surrenders the firearm to local law
       26 This is only done if the prohibited person is perceived as dangerous or if the

prohibited person refuses to dispose of the firearm.

U.S. Department of Justice                                                          26
Office of the Inspector General
Evaluation and Inspections Division
enforcement officials, or local law enforcement officials seize the firearm.
In our sample, of the 114 completed cases requiring a firearm retrieval,
59 (51 percent) involved third party transfers, 36 (32 percent) involved
returns to the FFL, 12 (10 percent) involved seizures by either the ATF or
local law enforcement agencies, and 4 (4 percent) involved
abandonments.27

       In cases in which the ATF does not seize the firearm, it is
important for the ATF to document that the prohibited person no longer
possesses the firearm and therefore that its retrieval actions were
successful. The ATF does have written policies requiring documentation
of third party transfers. According to a December 5, 2000, ATF policy
memorandum, “Should the firearm be transferred to a 3rd person, the
acknowledgement (Exhibit 3) signed by the original purchaser, the 3rd
party AND the investigating agent must be executed and made a part of
the investigative file.” We were unable to find similar written
requirements for documenting returns of firearms to the FFLs or for
seizures by local law enforcement agencies.

      We noted significant documentation deficiencies in our sample.
For example:

       •   Of the 59 cases in which the subject transferred the firearm to a
           third party, there was no evidence in 25 of the investigative case
           files (42 percent) that a written acknowledgement form was
           obtained.

       •   Of the 36 cases in which the subject returned the firearm to the
           FFL, there was no documented evidence in 27 of the
           investigative case files (75 percent) of this return.

       •   Of the six cases in which the firearm was either seized by or
           surrendered to a local law enforcement agency, there was no
           documented evidence in three of the investigative case files (50
           percent) of this transaction.

      We found considerable disagreement among ATF field special
agents as to whether documentation is required, particularly in third

       27 In the remaining three cases (3 percent), the ATF was unable to locate the

prohibited person. In our sample of 200 delayed denial referrals, the 123 referrals that
required a firearm retrieval included 9 cases in which the investigation had not been
completed at the time of our review.



U.S. Department of Justice                                                         27
Office of the Inspector General
Evaluation and Inspections Division
party transfers. Despite the requirements of the policy memorandum,
some special agents told us that they believed that a verbal assurance
from a third party was sufficient. We disagree. In addition to the
intrinsic value of having such documentation, the documentation could
be used as an evidentiary tool should the third party be prosecuted for
violating the agreement by allowing the prohibited person to have access
to the firearm.

      ATF management agreed with our findings and, subsequent to our
review, revised its written procedures to require that special agents
document third party transfers, returns of firearms to the FFLs, and
seizures of firearms by local law enforcement agencies.

    Background Checks of Third Parties Are Not Always Conducted or
Documented

       According to a December 5, 2000, ATF policy memorandum, third
party transfers “should be made to a non-prohibited individual.”
According to an ATF headquarters official, although the policy does not
specifically require that the ATF agent conduct a background check of
the individual to whom the firearm is transferred, the ATF expects the
agent to conduct an independent check instead of relying solely on the
word of the third party.

       We found, however, that of the 59 cases in our sample in which
there was a third party transfer, in only 24 cases (41 percent) did the
investigative case file indicate that a background check had been
performed on the person to whom the firearm was being transferred. For
the four ATF division offices we visited, the percentage of cases for which
there was documentation ranged from 7 percent (1 case out of 14) in the
Columbus division to 58 percent (11 cases out of 19) in the St. Paul
division.

      ATF management agreed with our findings and, subsequent to our
review, revised its written procedures to require the special agent to
ensure that the third party is not a prohibited person.




U.S. Department of Justice                                            28
Office of the Inspector General
Evaluation and Inspections Division
RECOMMENDATION

       Recommendation 4: The ATF should revise its standard initial
contact letter to include a response time frame and should direct its
personnel to send the letters on a timely basis, to track responses to the
letters, and to take timely action to retrieve the firearms when the letters
are unsuccessful in eliciting a response.


ATF Field Offices Receive Too Many Standard Denial Cases That Are
Unlikely to Be Prosecuted

       The ATF does not ensure that only those standard denial
       referrals that appear to have prosecutorial merit are
       referred to its field offices for investigation.  This
       practice unnecessarily increases the workload of the
       special agents in the field.

       By all accounts, the ATF considers the investigation of standard
denials to be a low priority. All of the SACs, ASACs, RACs, and group
supervisors we spoke with stated that, with the exception of firearm
retrievals, NICS cases were not a priority. This field attitude reflects ATF
headquarters policy. An ATF policy memorandum dated June 17, 1999,
stated that NICS cases, “are not to be worked at the expense of higher
priority investigative matters as determined by the respective Division
management team. Because of our limited resources, [standard]
referrals meeting the criteria set by ATF and respective U.S. Attorneys
should be processed according to the severity of the disqualifying
convictions, the presence of multiple attempts to purchase firearms, and
the availability of division resources.”

       Field special agents also told us that NICS cases required extensive
time and resources, but were rarely prosecuted. Special agents we
interviewed called the cases “pointless and overwhelming” and a “drain
on resources” and stated that they can “barely keep up” with the
workload. One group supervisor stated that his agents “cringe” when
assigned a NICS case. They also view these cases as detracting from
more important cases, such as those involving firearms traffickers,
gangs, arsons, and explosives. Although the special agents we spoke
with acknowledged the need for firearm retrievals, they saw little purpose
in investigating a standard case in which the NICS successfully
prevented a prohibited person from purchasing a firearm.



U.S. Department of Justice                                             29
Office of the Inspector General
Evaluation and Inspections Division
       We believe that the number of standard denials referred to field
offices should be limited to cases that meet USAO prosecutorial
guidelines. Our review found that ATF field offices are receiving too
many standard denial referrals that are unlikely to be prosecuted
according to USAO guidelines. This is adding unnecessary work to busy
field investigators’ caseloads and taking resources away from
investigations of other crimes. The standard denial cases need to be
better screened by both the Brady Operations Branch specialists and the
division office NICS coordinators.

       Over the years, the Brady Operations Branch has improved its
screening process for standard denials it receives from the FBI.
According to Brady Operations Branch management, the proportion of
the standard denials it referred to the field has been reduced from a high
of 40 to 50 percent, when the program was first initiated in 1999, to 22
percent in FY 2003 and 17 percent in FY 2004. Although the number of
standard denials sent to the field offices has been reduced, our review
identified improvements that could be made to further reduce the
workload. These improvements are discussed in the following sections.

       The USAOs Have Not Provided Sufficient Prosecutorial Guidelines

       While USAO prosecutorial guidelines are a critical tool for the ATF
to manage its NICS case workload, we found that not all USAOs provided
written guidelines. The Brady Operations Branch uses the guidelines to
screen the 60,000 referrals it receives annually, sending only those cases
that meet the USAO guidelines to the ATF division offices for
investigation. The Brady Operations Branch can only identify NICS
referrals by ATF division, and therefore it uses broader composite USAO
guidelines developed from the specific USAO guidelines available for that
division. For example, if individual USAO guidelines within a particular
division specify different ages of felony convictions, the Brady Operations
Branch will apply the oldest age to all the NICS referrals within that
division. The division NICS coordinators generally use the more specific
USAO guidelines to further screen the referrals they receive from the
Brady Operations Branch, thereby limiting the number of NICS cases
referred to the ATF’s field offices.

      We found that the guidelines that the USAOs provided were not
always current or sufficiently specific to be useful. We also found that
some of the division offices had received guidelines from their respective
USAOs and were using them to perform their own screening, but had not
forwarded these guidelines to the Brady Operations Branch as requested.


U.S. Department of Justice                                            30
Office of the Inspector General
Evaluation and Inspections Division
Further, due to system limitations, Brady Operations Branch specialists
are only able to identify NICS cases by federal judicial district, which
greatly limits the extent of the screening that can be performed.

        The ATF first instructed its division directors to obtain their
respective USAO’s guidelines via a policy memorandum dated
June 17, 1999. At that time, only half of the USAOs responded in
writing to the request. In 2003, the Brady Operations Branch made a
similar request to the ATF division offices, and only half of the divisions
responded. A January 29, 2003, memorandum from the Attorney
General to all U.S. Attorneys, the ATF Acting Director, all ATF special
agents in charge, and the EOUSA Director also stressed the importance
of USAO prosecutorial guidelines for combating gun crimes. The
memorandum stated, “To make the most of ATF’s investigative resources,
it is crucial that the U.S. Attorneys and ATF have a clear understanding
of the guidelines for cases to be referred for Federal prosecution and
cases that should be referred for state prosecution.” The memorandum
further directed the USAs and corresponding ATF special agents in
charge to meet and confer on prosecutorial guidelines and criteria to
ensure that they are fully coordinated on the investigation and
prosecution of gun crimes.

      However, as of April 2004, the Brady Operations Branch had been
able to compile written criteria for only 7 of the ATF’s 17 division offices
that receive NICS referrals. The Brady Operations Branch chief stated
that he was not sure whether the lack of responsiveness was due to the
USAOs not responding or the division offices not following up.

      In addition to reviewing the USAO guidelines used by the Brady
Operations Branch, we obtained information on the available guidelines
from the NICS coordinators and group supervisors or RACs at the four
ATF division offices we visited (encompassing 25 of the 94 USAOs). Of
these 25 USAOs, 8 had not provided guidelines to the ATF. Several of
the ATF field office group supervisors told us that some of the USAOs are
reluctant to provide written guidelines. One AUSA we spoke with stated
that developing standard guidelines is not practical because of the range
of gun crimes.

       We believe that the USAOs should provide written guidelines to the
ATF. The USAOs can add a qualifier to their guidelines stating that they
will accept cases that do not meet the guidelines on a case-by-case basis,
already a practice at those locations that have guidelines. In addition,
standard guidelines are possible and are done by some USAOs that


U.S. Department of Justice                                              31
Office of the Inspector General
Evaluation and Inspections Division
develop guidelines based on analyses of the cases that they successfully
prosecute.

       To be useful to the ATF, the guidelines also need to be specific and
realistic. Fourteen of the 17 guidelines we reviewed appeared to be
sufficiently specific. These guidelines identified the prohibiting factors
most likely to result in successful prosecutions and set parameters for
these factors, specifying types of crimes, ages of convictions, and
numbers or patterns of convictions.28 One of the remaining three
guidelines was overly broad because it merely listed all the prohibiting
factors and stated that the USAO was interested in seeing all cases.
Overly broad guidelines do not help the ATF screen cases. We were
unable to assess the quality of two guidelines because they were not
available at the division offices during our visit.

      We also found that some guidelines were not realistic. For
example, one NICS coordinator told us that he generally screens out any
standard referrals in which a prohibited person attempted to purchase a
long gun. He stated that the USAOs in the division’s region will not
accept these cases because they are in “hunting country,” where these
cases generally lack jury appeal.29 Our discussions with representatives
from one of the USAOs in the district confirmed this. However, we noted
that none of the written prosecutorial guidelines included the qualifier
that a prohibited person who purchased a long gun would normally not
be prosecuted. In addition, because priorities change, it is important
that the USAOs review and update their guidelines annually. We
generally found that this was not occurring.

       Brady Operations Branch specialists currently can distinguish
each denial transaction only by ATF division office, not by federal judicial
district. Brady Operations Branch management agreed that the capacity
to screen by individual federal judicial district would help reduce the
volume of referrals to the field offices because they would be able to
screen for criteria specific to a particular USAO instead of using broader
criteria. They stated that with additional funding, FFL identification
numbers could be matched to a particular federal judicial district.



        28 In general, the types of cases more likely to be prosecuted were those

involving violent offenders, more recent crimes, career criminals, and patterns of
escalating violence.

       29 “Jury appeal” refers to those cases that are more likely to result in a

conviction.

U.S. Department of Justice                                                           32
Office of the Inspector General
Evaluation and Inspections Division
Developing the technological capacity to enable the Brady Branch
specialists to screen using individual USAO guidelines would eliminate
the need for the NICS coordinators to perform additional screening. In
the interim, more complete USAO guidelines would help the NICS
coordinators better screen NICS referrals.

       More Screening Needs to Be Done by the Division Offices

       Although additional screening by NICS coordinators at the ATF
division offices can reduce the flow of standard denial cases to the field
offices, we found that not all NICS coordinators screen these cases. Six
(35 percent) of the 17 division offices that receive referrals from the
Brady Operations Branch are not screening referrals before forwarding
them to the appropriate field or satellite office.30

       Our sample of 50 standard denials selected from each of four
division offices we visited showed a wide variation in the number referred
to field and satellite offices. One (Columbus) performed no screening,
and therefore forwarded 100 percent of the standard denials it received.
Of the three division offices that screened the standard denials, New
Orleans screened out 6 percent (forwarding 94 percent), Kansas City
screened out 36 percent (forwarding 64 percent), and St. Paul screened
out 84 percent (forwarding 16 percent).

       One NICS coordinator stated that his field offices want to see all
standard denials because they view them as having potential intelligence
value. This argument is questionable because initial screening done by
the Brady Operations Branch leaves the division offices with only a small
fraction of the standard denials to review. In our opinion, NICS
coordinators who do not further screen denial referrals are transferring
the burden to the busy field offices.

       NICS Coordinators Need Training and Written Guidance

        The ATF could improve its screening of NICS cases by providing
training and guidance to the NICS coordinators. During our telephone
interviews with NICS coordinators, we found some of the coordinators
were unfamiliar with the NICS program. For example, a NICS
coordinator assigned to an ATF division with a large NICS workload had
little understanding of the NICS process and mistakenly believed that the

        30 The ATF division offices in Boston, Charlotte, Columbus, Dallas, Miami, and

Seattle do not screen referrals.



U.S. Department of Justice                                                        33
Office of the Inspector General
Evaluation and Inspections Division
FBI, not the Brady Operations Branch, was sending her copies of court
documents.

      We found that few of the NICS coordinators received training on
the NICS program. Only six of the current NICS coordinators had
attended the last NICS training conference, which was held in 2000. The
majority of the NICS coordinators we spoke with indicated that they
would like to attend a NICS conference. According to the Chief of the
Brady Operations Branch, the Branch used to host NICS coordinator
conferences but had not done so for several years due to the lack of
funding. In April 2004, the Chief informed us that a 1-week conference
has been tentatively scheduled for the summer of 2004, pending funding
approval. The conference is to be held at the Brady Operations Branch
and is to include a site visit to the FBI NICS Section.

       In addition, the ATF has not provided the NICS coordinators with
written guidance, which would provide more consistency in screening
cases.

       Fewer Alien Cases Should Be Forwarded to the Division Offices

       We found that the Brady Operations Branch unnecessarily
forwarded to the ATF division offices standard denial referrals pertaining
to aliens that did not meet USAO guidelines. Further, the ATF has not
issued any guidance to its division and field offices on what actions to
take in relation to these cases. As a result, some division and field
offices close these cases upon receipt without taking action; others refer
these cases to the local ICE office, unaware that the Brady Operations
Branch has already made the referral.

     Illegal aliens and aliens admitted to the United States under a
nonimmigrant visa are prohibited from possessing firearms.31 The Brady

       31  While illegal aliens and aliens admitted to the United States under a
nonimmigrant visa are generally prohibited from possessing or purchasing firearms in
the United States, there are some exceptions: (1) nonimmigrant aliens who possess a
valid hunting license or permit lawfully issued by a U.S. state; (2) nonimmigrant aliens
entering the United States for “sporting” purposes (e.g., to compete in a competitive
shooting event or to display firearms at a trade show); (3) certain diplomats;
(4) designated officials of foreign governments or distinguished foreign visitors;
(5) foreign law enforcement officers entering the United States on official law
enforcement business; and (6) persons who have received a waiver from the U.S.
Attorney General. A nonimmigrant who falls into one of these categories must reside in
the United States at least 90 days prior to purchasing a firearm from an FFL.



U.S. Department of Justice                                                        34
Office of the Inspector General
Evaluation and Inspections Division
Operations Branch specialists forward to ICE all cases in which the
person has indicated on ATF Form 4473 that he or she has a foreign
place of birth. The following types of cases are also forwarded to the
appropriate ATF division office:

       •   If the alien received a firearm, the case is treated similarly to a
           nonalien case and forwarded as a delayed denial for the
           purposes of retrieving the firearm.

       •   If the alien did not receive a firearm but has a prohibiting
           criminal record (e.g., is a convicted felon), the case is treated
           similarly to a non-alien case and forwarded for investigative
           purposes.

       •   If the alien does not have any other prohibiting factors, the
           specialist may forward the case for “informational purposes” if
           the alien is in the United States illegally or if ICE’s records are
           inconclusive as to the alien’s status.

       The ATF has not provided procedural guidance to the field on how
to handle these referrals. As a result, we found that NICS coordinators
and field special agents were unclear on what actions to take on these
cases. Two of the NICS coordinators we spoke with stated that they
routinely close all cases that involve aliens as they receive them; the
other 15 NICS coordinators stated that they refer these cases to the field
for resolution. None of the field staff we spoke with were aware that the
Brady Operations Branch routinely referred these cases to ICE. As a
result, some of the division and field personnel also refer these cases to
ICE.32 In fact, based on our review it appears that the only action, if any,
the field offices take in relation to these types of cases is to refer them to
ICE.

       None of the cases in our sample that pertained to the alien
prohibition resulted in investigations. Of our sample of 200 standard
referrals, 22 (11 percent) were denials due to the alien prohibition. In
none of these 22 cases did the person have a criminal record or other
prohibiting factors. None of these cases resulted in investigative action –
6 were closed immediately upon receipt by the NICS coordinator, while



        32 One NICS coordinator told us that she no longer refers these cases to the local

ICE office because ICE officials at that office told her they were not interested.



U.S. Department of Justice                                                          35
Office of the Inspector General
Evaluation and Inspections Division
the remaining 16 were forwarded to a field office where 14 were closed by
a special agent without investigative action.33

       In our opinion, the Brady Operations Branch should refer to the
field only those alien cases that require a firearm retrieval or that meet
USAO prosecutorial guidelines. If, however, the ATF determines that
there is some useful purpose in referring these cases to the field, it needs
to develop guidance to communicate its expectations about how the field
offices are to respond.

       Better Communication Needed Within the ATF

      The volume of standard referrals being sent to the field could be
greatly reduced with improved communication among the Brady
Operations Branch, the ATF division offices, and the ATF field offices.

       During our site visit, Brady Operations Branch specialists stated
that they did not regularly receive feedback on the appropriateness of the
standard denial referrals they sent to the field and therefore did not
know whether they were screening effectively. Without knowing how
successful their referrals are, the specialists are unable to modify their
procedures. The only feedback mechanism the specialists currently have
is to access NFORCE to look up what actions the field offices took in
relation to specific referrals.

       We found that some of the division office NICS coordinators were
closing a substantial amount of the standard denial referrals as they
received them from the Brady Operations Branch. At one of the division
offices we visited, the NICS coordinator closed 42 of the 50 (84 percent)
standard denial cases in our sample; at another division office, the NICS
coordinator closed 18 of the 50 (36 percent) standard denial referrals in
our sample. In addition, four other NICS coordinators we contacted by
phone estimated that they close from 40 percent to 95 percent of the
standard denial referrals they receive.

      In our opinion, if the NICS coordinators are closing a large
percentage of the standard denial referrals they receive, then these are
inappropriate referrals from the Brady Operations Branch. To reduce the
number of standard denial referrals being received, the NICS
coordinators need to analyze their rationale for not referring the cases for
investigation and provide feedback to the Brady Operations Branch. If

        33 The remaining two cases have not yet been closed; however the investigative

files do not indicate that any investigative action has taken place.

U.S. Department of Justice                                                        36
Office of the Inspector General
Evaluation and Inspections Division
the Brady Operations Branch specialists were aware of the types of cases
actually being investigated by the field, they could close those types of
cases instead of referring them to the division office.

       The special agents in the field offices need to communicate similar
information back to their NICS coordinators. Several of the group
supervisors we spoke with stated that they closed out the majority of the
referrals they received from their NICS coordinators. However, the group
supervisors and RACs should ask the NICS coordinators to cease
sending particular types of referrals to the field offices. It is not
constructive, as is the current practice, for special agents to question the
rationale for particular cases being sent to them by the NICS coordinator.
Instead, they need to provide the NICS coordinator with specific guidance
for screening cases.

RECOMMENDATIONS

      Recommendation 5: The EOUSA should ensure that annually
each USAO provide the ATF with specific prosecutorial guidelines for
NICS cases.

      Recommendation 6: The ATF should examine the feasibility of
enabling Brady Operations Branch specialists to identify NICS cases by
federal judicial district, thereby enabling the ATF to consolidate all its
NICS referral screening at the Brady Operations Branch. In the interim,
the ATF should require all division office NICS coordinators to screen
NICS standard denial referrals and refer to the field offices only those
cases that meet USAO prosecutorial guidelines.

      Recommendation 7: The ATF should provide annual training to
the NICS coordinators and develop a NICS coordinator handbook.

       Recommendation 8: The ATF Brady Operations Branch should
refer to the field offices only those alien cases that meet the USAO
prosecutorial guidelines.

      Recommendation 9: The ATF should require division office NICS
coordinators and field office personnel to notify the Brady Operations
Branch of those referrals that do not meet USAO guidelines.




U.S. Department of Justice                                            37
Office of the Inspector General
Evaluation and Inspections Division
Some Denied Persons Are Subsequently Determined by the ATF Not
to Be Prohibited

       After performing additional research, the ATF frequently
       determines that the denied individual is not prohibited
       from possessing a firearm. Generally this occurs because
       the FBI could not readily determine the individual’s
       prohibited status due to inaccurate and incomplete
       automated state records.

       We found that 69 of the 197 (35 percent) delayed denials and 16 of
the 200 (8 percent) standard denials in our sample were applicants who
should not have been prohibited from purchasing a firearm.34 Special
agents in each of the four divisions we visited stated that this was a
common occurrence. Although the investigative files did not specify why
the subjects in our sample were found not to be prohibited, our
discussions with ATF personnel identified several reasons why this
generally occurs: (1) the subject’s firearm rights had been restored under
state law, (2) the subject’s prohibition for a misdemeanor crime of
violence did not meet the federal criteria, or (3) a protective order had
expired or was about to expire. These circumstances are discussed in
detail in the following sections.

       Firearm Rights Have Been Restored

       Currently, when a federal crime is the prohibiting factor, the
person’s firearm rights can only be restored through a presidential
pardon.35 In relation to persons prohibited from possessing firearms due
to a criminal conviction, the GCA states: “Any conviction which has been
expunged, or set aside or for which a person has been pardoned or has

       34  Although our sample included 200 delayed denials, 3 were referred to the
state for retrieval action instead of to the ATF and therefore we did not include these
cases in this analysis. See footnote 25 for additional details.

       35  Title 18 U.S.C. Section 925(c) states that an individual may apply to the
Secretary of the Treasury for “relief from the disabilities imposed by Federal laws with
respect to the acquisition, receipt, transfer, shipment, transportation of firearms, and
the Secretary many grant such relief if it is established to his satisfaction that the
circumstances regarding the disability, and the applicant’s record and reputation, are
such that the applicant will not be likely to act in a manner dangerous to public safety
and that the granting of such relief would not be contrary to the public interest.” This
function was delegated to the Director of the ATF. Congress has not authorized funding
for this program since October 1992, and therefore the ATF no longer performs this
function.



U.S. Department of Justice                                                          38
Office of the Inspector General
Evaluation and Inspections Division
had civil rights restored shall not be considered a conviction for purposes
of this chapter, unless such pardon, expungement, or restoration of civil
rights expressly provides that the person may not ship, transport,
possess, or receive firearms.” 36

      All but two states have provisions for restoring firearm rights.37
Firearm rights are restored automatically or through application. The
conditions for restoration vary greatly among the states by age (juveniles
versus adults), type of crime, and the time frame between release from
prison or parole and restoration of rights. In some states, restoration
rights specifically apply only to convicted felons, which may result in a
paradoxical situation in which someone convicted of a misdemeanor
crime of domestic violence is permanently barred from owning a firearm,
while someone who kills his spouse has his firearm rights restored after
serving his sentence.

       Twenty-one states automatically restore firearm rights upon
release from prison or completion of parole.38 Forty-five states have
provisions for restoring firearm rights through application.39 A person,
after a specified waiting period in which no additional crimes have been
committed, can submit an application to the appropriate authority for
restoration. Again, the conditions vary widely among the states.

      Because these provisions affect the person’s right to possess a
firearm, it is important for FBI NICS examiners, Brady Operations
Branch specialists, NICS coordinators, and ATF special agents to be
familiar with them. Automatic restorations should readily be identified
by FBI NICS examiners and Brady Operations specialists. Although we
were unable to verify employee expertise in applicable state law, FBI
NICS and Brady Operations Branch management assured us that their
employees, who are assigned cases for particular states, have expertise


       36   18 U.S.C. Section 921(a)(20).

       37 Statistics on states’ restorations of rights provisions used in this section were
extracted from the Survey of State Procedures Related to Firearm Sales, Midyear 2002,
published by the DOJ’s Bureau of Justice Statistics, October 15, 2003 (revised version)
and from ATF P 5300.5 State Laws and Published Ordinances – Firearms (2003 – 24th
Edition). The two states that do not have provisions for restoration rights are Alabama
and Vermont.

       38   In six of these states, automatic restoration only applies to juveniles.

      39 In 21 of these states, restoration of firearm rights only occurs through

pardons or expungements of records.

U.S. Department of Justice                                                             39
Office of the Inspector General
Evaluation and Inspections Division
in the applicable state laws. Because it is difficult for FBI NICS
management to ensure that the automatic restoration provisions are
taken into account when determining whether to deny a firearm to a
person, the ATF should report exceptions back to the FBI. Currently
there is no mechanism to do so.

      Restoration of rights through application is much more difficult for
the FBI NICS examiner to ascertain. According to FBI NICS
management, states are responsible for entering the names of persons
whose rights have been restored into one of the criminal databases (III or
NCIC). If this is properly done, the NICS check should identify not only
the prohibiting factor, but also the restoration. However, considering the
inaccessibility and incompleteness of some state criminal history
records, it is unlikely that restoration information will be identified
during the NICS check.40

       Domestic Violence Criteria Were Not Met

       Of the 85 cases in our sample closed by the ATF division, field, or
satellite office because the person was determined not to be prohibited
from possessing firearms, 27 (32 percent) had been denied under the
prohibition for conviction of misdemeanor crimes of domestic violence.

      For a misdemeanor crime of domestic violence to qualify as a
federal prohibitor for firearms possession, certain criteria must be met,
some of which are not readily apparent from the records included in the
criminal databases. Before initiating an investigation or retrieving a
firearm, the ATF special agent often needs to review court documents to
determine whether all the prohibiting criteria are met. These criteria are:

       •   The offense must have an element of either using or attempting
           to use physical force or threatening the use of a deadly weapon;

       •   The defendant, at the time the crime was committed, must have
           had a relationship with the victim, specifically that of a spouse
           or ex-spouse, parent, or guardian; sharing a child in common;
        40 The problems of inaccessible and incomplete state criminal history records

were noted by the General Accounting Office (GAO) in the following reports: Gun
Control: Implementation of the National Instant Criminal Background Check System,
GAO/GGD/AIMD-00-64 (February 2000); Gun Control: Options for Improving the
National Instant Criminal Background Check System, GAO/GGD-00-56 (April 2000); Gun
Control: Opportunities to Close Loopholes in the National Instant Criminal Background
Check System, GAO-02-720 (July 2002); and National Criminal History Improvement
Program: Federal Grants Have Contributed to Progress, GAO-04-364 (February 2004).

U.S. Department of Justice                                                     40
Office of the Inspector General
Evaluation and Inspections Division
             cohabiting or having cohabited with the victim; or similarly
             situated to a spouse, parent, or guardian of the victim;

       •     The defendant must have been represented by counsel or
             knowingly and intelligently have waived the right to counsel at
             the time of his or her conviction;

       •     The defendant must have been entitled to a jury trial or
             knowingly and intelligently have waived the right to have the
             case tried by a jury; and

       •     The defendant must not have had the conviction expunged or
             set aside, or received a pardon or a restoration of firearm
             rights.41

       To qualify under this prohibition, the person does not have to have
been convicted specifically for a misdemeanor crime of domestic violence.
According to Title 9, Section 1117 of the United States Attorneys’
Criminal Resource Manual, this prohibition includes all misdemeanors
that involve the use or attempted use of physical force (e.g., simple
assault, assault and battery), if the offense is committed by one of the
defined parties.

       In some states, few crimes of domestic violence qualify as
prohibiting factors. For example, most domestic violence cases in
Louisiana do not meet the criteria because any misdemeanor for which
the punishment is a fine of $1,000 or less or imprisonment for six
months or less is tried without a jury.42 Most domestic violence crimes
are charged as either simple battery or aggravated assault, which fall
below the level requiring a jury trial. The defendant also does not have
the right to counsel. Therefore, under these criteria, a person with a
domestic violence conviction in Louisiana is not prohibited from
possessing a firearm.

      In some cases, a person’s prohibited status cannot be determined
without a review of court records. In these cases, it is difficult for the
FBI NICS examiner to obtain the information within the 3-day period.
However, wherever possible the ATF should try to identify trends in
inappropriate referrals and communicate these to FBI NICS in order to

       41   18 U.S.C. Section 921.

       42 Louisiana Code of Criminal Procedures Article 779, Trial of Misdemeanors,

Section A.

U.S. Department of Justice                                                       41
Office of the Inspector General
Evaluation and Inspections Division
reduce the number of inappropriate denials. For example, if the ATF
identifies that persons in a particular state are never prohibited because
the legal process in that state does not meet the prohibitive criteria, the
ATF needs to communicate this to the FBI NICS Section.

       Protective Orders Have Expired

       Being under an active protective order is one of the prohibiting
factors for possessing a firearm. If a protective order has expired when
the ATF begins its investigation, the ATF will not initiate a firearms
retrieval or investigation because the person is no longer prohibited from
possessing a firearm. This occurred in 7 of the 85 cases (8 percent) in
our sample closed by the division, field, or satellite office. These cases
could be screened more efficiently by the division office NICS coordinator
or a contract or administrative employee instead of being assigned to a
special agent.

RECOMMENDATION

       Recommendation 10: The ATF should require division office
NICS coordinators and field office personnel to notify the Brady
Operations Branch and the FBI NICS Section of trends in inappropriate
referrals of non-prohibited persons. Also, require that the field office
personnel, via the division office NICS coordinators, provide to the FBI
NICS Section the names of those individuals that the ATF determines not
to be prohibited and documentation to support the reason for the
person’s non-prohibited status.


Improvements Are Needed in Brady Operations Branch

       The ATF Brady Operations Branch periodically has
       extensive workload backlogs due to insufficient staffing
       and    operational     inefficiencies resulting    from
       technological limitations.

      The Brady Operations Branch has made significant progress in
processing NICS referrals since its establishment in January 2000.43 In
October 2000, the FBI began forwarding denials to the Brady Operations
Branch on a daily basis (prior to this, the denials were forwarded every
two weeks). In August 2002, the ATF NICS Referral (ANR), the system

        43 This is the date when the first permanent staff was hired. Prior to this, field

special agents were detailed on a rotating basis.

U.S. Department of Justice                                                            42
Office of the Inspector General
Evaluation and Inspections Division
used by the ATF to receive referrals from the FBI, was integrated with the
ATF’s NFORCE system. This enabled ATF division office personnel to
access a NICS denial file once the Brady Operations Branch specialist
processed the denial. Prior to this, the Brady Operations Branch had to
mail or fax the referral information to the division offices. These changes
have made the referral process more timely and efficient.

      However, funding constraints have hindered its continued
progress. Part of the problem results from the Brady Operations Branch
not having a separate budget and therefore having little control over its
yearly funding. In the following sections, we discuss the impact these
funding constraints have had on processing NICS referrals. We also
discuss a technological modification needed to improve the referral
process.

       Additional Staffing Is Needed to Ensure Timely Processing

       During our review, we noted excessive backlogs occurring at the
Brady Operations Branch during the peak processing season (October
through December). Brady Operations Branch specialists told us that it
generally takes them four months to process the large volume of referrals
received during this period. Although denials requiring firearms
retrievals are processed and referred to the appropriate division offices on
the same day as they are received, the standard denials are queued and
processed by each specialist in the order received. As a result, the
standard denials received by the Brady Operations Branch during the
peak season may not be transferred to the field for investigation for three
to four months. And because cases are processed in the order received,
there is no priority processing of cases that merit prosecution, such as
those in which the subject is considered a danger to the community.

      At the time of our January 2004 site visit, the Brady Operations
Branch was experiencing extensive workload backlogs as shown in
Figure 5.




U.S. Department of Justice                                            43
Office of the Inspector General
Evaluation and Inspections Division
                                                                  Figure 5: Brady Operations Branch Backlogs
                                                                               CY 2002 and 2003
                                                                 Brady Operations Branch Backlogs - CY 2003
                                   Number of Pending Referrals
     Number of Pending Referrals

                                          10,000
                                       10,000
                                           9,000
                                        9,000
                                           8,000
                                        8,000
                                           7,000
                                        7,000
                                           6,000
                                        6,000
                                           5,000
                                        5,000
                                           4,000
                                        4,000
                                           3,000
                                        3,000
                                           2,000
                                           1,000
                                        2,000
                                        1,000 0
                                            0
                                                                                             Mar-02




                                                                                                               Mar-03
                                                                                                               May-02




                                                                                                               May-03
                                                                                                                 Jul-02



                                                                                                               Nov-02
                                                                                                               Dec-02




                                                                                                                 Jul-03



                                                                                                               Nov-03
                                                                                                               Dec-03
                                                                                                      Apr-02




                                                                                                                Oct-02




                                                                                                                Apr-03




                                                                                                                Oct-03
                                                                           Jan-02
                                                                                    Feb-02



                                                                                                               Jun-02




                                                                                                               Jan-03
                                                                                                               Feb-03



                                                                                                               Jun-03
                                                                                                               Aug-02
                                                                                                               Sep-02




                                                                                                               Aug-03
                                                                                                               Sep-03
                                                                                    Feb-02




                                                                                                               May-02




                                                                                                               Sep-02




                                                                                                               Nov-02
                                                                  Jan-02




                                                                                                      Mar-02




                                                                                                               Aug-02




                                                                                                               Dec-02
                                                                                                                Jul-02
                                                                                                               Apr-02




                                                                                                               Jun-02




                                                                                                               Oct-02
                                                                                                                Month
                                                                                                                    Month

                            Source: ATF Brady Operations Branch

       According to Brady Operations Branch management, the extensive
current backlogs are due to an overall increase in workload (an
additional 5,300 referrals from the prior year), the transfer of a high-
producing specialist, and insufficient staff. Management stated that
during this past peak season, FBI NICS was sending 300 to 400 referrals
a day for processing to the seven Brady Operations Branch specialists.
As of June 2004, substantial backlogs still existed. According to a Brady
Operations Branch official, as of June 10, 2004, 2,819 standard denial
referrals were still awaiting processing.

        The specialists we interviewed concurred with management’s
assessment of the reasons for the backlogs. During interviews with each
of the specialists, they stated that during this past peak season they
were each receiving up to 90 referrals a day. In December 2003 and
January 2004, their individual backlogs ranged from 700 to 2,000 cases.
The specialists told us that generally they start falling behind on their
workload in November and are not able to catch up until April or May.
All of the specialists we spoke with agreed that additional permanent
staff is needed to prevent backlogs, with the general consensus that at
least two specialists are required.

      Brady Operations Branch management agreed with the specialists’
assessment that at least two additional specialists were needed. They
noted that the number of specialists has decreased from nine when the

U.S. Department of Justice                                                                                                  44
Office of the Inspector General
Evaluation and Inspections Division
Brady Operations Branch was first established to seven. Further, there
is a possibility of workload increases if any additional POC states decide
to turn their operations over to FBI NICS because of dwindling state
resources.44

      When contacted in April 2004, the Brady Operations Branch Chief
stated that they had put in a request for two contract employees to
supplement the specialist staff. He also mentioned that an additional
permanent specialist position had been approved. As of June 2004, the
contractor positions had not yet been funded.

       Computer System Limits Efficiency

       Brady Operations Branch officials told us that funding during the
past three years has not increased sufficiently to support technological
modifications to improve efficiency. Primary among the needs is
modifying the ANR computer system to include digital imaging, which
would allow Brady Operations Branch specialists to scan documents,
such as ATF Form 4473 and court records, into the system and send
them electronically to ATF division offices. Currently, these documents
are faxed or mailed by the Brady Operations Branch to the ATF division
office NICS coordinators, who must in turn fax or mail these documents
to the field offices. Other modifications would enable Brady Operations
Branch management to monitor processing timeliness, require specialists
to document the qualifying criteria, enlarge the space for specialists to
type their comments, and allow the specialists to automatically identify
instances in which the prohibited person either made or attempted to
make multiple firearms purchases.

      Brady Operations Branch officials told us that in 2003 they had
submitted a request to ATF headquarters for $760,000 for 25
modifications to ANR. In April 2004, the Brady Operations Branch Chief
told us that the funding request had been denied. When questioned
about the funding request, an ATF headquarters official cited other
funding priorities as the reason for the denial.




        44 The state of Indiana dropped out of the POC program in October 2003.

During our review, FBI NICS and Brady Operations Branch managers stated that
several other states were considering dropping out of the POC program due to funding
issues.

U.S. Department of Justice                                                      45
Office of the Inspector General
Evaluation and Inspections Division
       The FBI Needs to Distinguish Delayed Denials from Standard
       Denials

       Currently the FBI NICS Section’s daily electronic transfer of denials
to the Brady Operations Branch does not distinguish between delayed
denials and standard denials. Because delayed denials have a higher
priority – a prohibited person has received a firearm that needs to be
retrieved – they need to be removed from the queue and immediately
forwarded to the appropriate ATF division office for action.

       The identification of the delayed denials is currently a manual
process. Daily, the FBI NICS Section sends by facsimile an initial
firearms retrieval notification for each denial in which the firearm has
been transferred to a prohibited person. The Brady Operations Branch
logs and files the facsimiles in the “pending” drawer to await the
corresponding electronic submission. When the electronic transfer is
received, the Brady Operations Branch specialist retrieves the faxes and
pulls the denial out of the electronic queue for processing. The Brady
Operations Branch also checks the fax log entries against the electronic
submission to ensure that all the delayed denials appear on the
electronic submission.

       In our opinion, this is an unnecessarily cumbersome process for
both the FBI NICS Section and the Brady Operations Branch. Delayed
denials should be distinguished from standard denials on the daily
electronic submission. According to Brady Operations Branch officials,
the FBI NICS Section has agreed to implement this modification but has
put it on the “back burner” because it is a low priority. In April 2004, we
contacted the FBI NICS Section Chief about this issue. He also agreed
that it appeared to be a beneficial modification. He later informed us
that he had submitted a program change request for the modification,
but that he was advised that, due to the existing backlog of requested
computer enhancements, this would not be implemented until at least
the end of CY 2005.

RECOMMENDATIONS

       Recommendation 11: The ATF should ensure that the Brady
Operations Branch is sufficiently staffed to minimize backlogs and
sufficiently funded to implement necessary automated system
modifications.




U.S. Department of Justice                                            46
Office of the Inspector General
Evaluation and Inspections Division
      Recommendation 12: The FBI should distinguish delayed denials
from standard denials on its daily electronic transfers of denial
transactions to the ATF.


Few NICS Cases Are Prosecuted

       Despite the large number of Brady Act violations
       identified by the FBI, these violations rarely have been
       prosecuted.     Historically, the USAOs have been
       unsuccessful in achieving convictions in many of these
       types of cases. Consequently, they have been unwilling
       to prosecute most NICS cases.

      A June 28, 2001, memorandum from the Attorney General directed
the U.S. Attorneys to “make it a priority to enforce the law against those
persons who attempt to subvert the legitimate crime prevention
objectives of the Brady Act and to incorporate this new focus into [their]
comprehensive prosecutive efforts.” The memorandum further stated,
“Persons who violate federal gun laws will find a determined adversary in
this Administration, this Department, and in each United States
Attorney. As the nation’s prosecutors, you must send a clear message:
gun crime means hard time.”

      We found that very few NICS cases are prosecuted. During CYs
2002 and 2003, the USAOs prosecuted only 154 (less than 1 percent) of
the 120,000 persons who were found to be a prohibited person during
the NICS background check. Of the 400 NICS cases in our sample, only
8 cases had been referred by the ATF to a USAO for prosecution (another
2 involved subjects who were already under arrest for other crimes and
were being prosecuted by the state).45

       During this period, the ATF formally referred a total of only 230
cases to the USAOs (185, or 80 percent were accepted for prosecution).
These numbers reflect only formal referrals and not the number of
informal referrals made by the ATF. Most of the ATF special agents at
the 13 field offices we contacted stated that before preparing a formal
referral, their office’s practice was to first contact the USAO and

        45 Of these eight referrals, two persons were prosecuted and found guilty, one

was prosecuted and found not guilty, three were declined, and two were pending at the
time of our review. Two of the declined cases were subsequently accepted and
prosecuted by the state.



U.S. Department of Justice                                                       47
Office of the Inspector General
Evaluation and Inspections Division
determine whether the USAO was interested in accepting the case.
These informal referrals were not quantified in NFORCE, but generally
were documented in a management case log, which is part of the
investigative case file.46 Because the ATF does not formally track
informal referrals, we were unable to determine the actual number of
cases that the ATF field offices referred to the USAOs.

       Although the number of prosecutions is low, we concluded that
this has more to do with the nature of the cases than with the
unwillingness of the USAOs to prosecute. In fact, the ATF special agents
we spoke with (located in 13 different states) and SACs and ASACs
(located in four divisions) consistently complimented their USAO’s
willingness to prosecute NICS cases. They consistently commented that
it was difficult to find a “good” NICS case to refer to the USAO because
these cases generally lacked jury appeal.

       They said lack of jury appeal was the result of several factors:

       •   The NICS denial was based on an old conviction and the
           prohibited person has no record of subsequent criminal activity.
           Of the 229 cases in our samples where we could determine the
           dates of convictions, in 110 cases the prohibiting conviction
           occurred at least 5 years prior to the attempted firearms
           purchase (48 percent of the cases in which we could determine
           a date); in 30 of these cases, the prohibiting conviction occurred
           at least 20 years prior (13 percent of the cases in which we
           could determine a date).47 The oldest crimes in our sample
           were a breaking-and-entering case from 1958, an attempted
           burglary case from 1963, and a misdemeanor crime of domestic
           violence case from 1964.

       •   The NICS denial was based on a felony conviction for a
           nonviolent crime. Nonviolent crimes in our sample included
           passing bad checks, failure to pay child support, sales tax
           evasion, shoplifting, theft of public benefits, and fraud. One of
           the Brady Operations Branch specialists told us that he once
       46 Of the 381 delayed and standard denial cases in our sample that had been

completed, there were indications in 43 files (11 percent) that the case had informally
been referred to the USAO, where it was declined.

       47 We were not always able to readily determine the age of the prohibiting

conviction from the documentation provided to us. The 229 cases include cases from
both our Brady Operations Branch sample (100 cases sampled) and our field office
sample (400 cases sampled).

U.S. Department of Justice                                                         48
Office of the Inspector General
Evaluation and Inspections Division
           received a denial for a 1941 felony conviction for stealing a pig.
           A special agent at one of the field offices cited a 1969 felony for
           stealing four hubcaps from a car.

       •   It is not evident that the person was aware that he or she was
           prohibited from possessing a firearm. According to Section
           1117 of the U.S. Attorneys’ Criminal Resource Manual, one of
           the factors to be used in determining if a particular case merits
           federal prosecution is whether the potential defendant was “on
           notice” that his or her possession of a firearm was illegal.48
           Several ATF special agents stated that when they contact
           individuals, many said they did not realize they were prohibited
           from possessing a firearm. Some knew that they had been
           convicted of a crime, but did not realize that the charge was a
           felony. Others did not realize that they were subject to the
           prohibition of misdemeanor crimes of domestic violence because
           they actually were charged with another type of offense, such as
           assault or disorderly conduct.

       •   The person attempted to purchase a long gun, not a handgun.
           Several ATF special agents stated that it was difficult to
           prosecute long gun cases in those states where hunting is a
           popular sport. Agents said that jurors in these states often
           believe that a person should have the right to purchase a long
           gun for hunting purposes, and therefore they are less likely to
           convict prohibited persons who attempt to purchase long guns
           for lying to the FFL concerning their prohibited status.

       •   The person is prohibited for being a fugitive. Title 18 U.S.C.
           Section 921(a)(15) defines a fugitive from justice as “any person
           who has fled from any State to avoid prosecution for a crime or
           to avoid giving testimony in any criminal proceeding.” FBI NICS
           denies a firearm to any person who has an outstanding warrant
           from another state under the federal prohibitor “fugitive from
           justice.” However, to prosecute these types of cases, there
           would have to be evidence that the reason the person left the
           state was to avoid prosecution or giving testimony in a criminal
           proceeding. These conditions are difficult to prove. Even if
           there was evidence that the person left the state for these

        48 Other factors to consider are the date of the previous conviction, the

circumstances under which the firearm was obtained, the existence of indicators of
current potential for violence, available alternatives to federal prosecution, and whether
false statements were made.

U.S. Department of Justice                                                          49
Office of the Inspector General
Evaluation and Inspections Division
               reasons, the case may not be prosecutable if the basis for the
               warrant is not considered to have prosecutorial merit, e.g., if the
               warrant is for crimes such as traffic violations or for shoplifting.

       •       The person is prohibited for noncriminal reasons. Absent any
               criminal record, persons who are prohibited because they are
               illegal or nonimmigrant aliens, have received dishonorable
               discharges from the military, have renounced their citizenship,
               or have been adjudicated mentally defective are generally not
               prosecuted.

      Based on our review of 400 NICS investigative files, in all but one
case we agreed with the ATF’s assessment that the cases failed to meet
USAO prosecutorial guidelines.49 The eight cases in our sample that had
been referred for prosecution represented more egregious cases. These
included:

           •    A person who was denied a firearm because he was indicted
                for felony child abuse (the subject was also a felon who had
                been previously convicted on an arson charge). A search of
                the subject’s premises resulted in the recovery of 11 firearms
                that the subject said he was “holding for a friend.” When
                questioned, the subject stated that he “forgot he wasn’t
                supposed to have firearms.”

           •    A person with an active restraining order against him.

           •    A person who was denied as a felon because he was convicted
                under a federal charge for the unlawful making of a
                destructive device and under a state charge for attempted
                homicide and the use of a dangerous weapon. These charges
                stemmed from a 1989 incident where the subject tried to run
                over a sheriff’s deputy and was found to have two sticks of
                dynamite in his truck. The subject was also arrested in 1995



       49 This case was a standard denial for a person prohibited on the basis of a

conviction for misdemeanor crime of domestic violence. The case appeared to meet the
USAO’s prosecutorial guidelines because the crime was recent (four months prior to the
attempted firearm purchase) and there appeared to be a pattern of violence (the person
had been charged with felony charges of aggravated assault twice in the past two years).
We brought this particular case to the ATF’s attention and ATF agents agreed that the
case appeared to meet the USAO’s prosecutorial guidelines. Subsequent to our review,
agents contacted the USAO, who later declined prosecution.

U.S. Department of Justice                                                        50
Office of the Inspector General
Evaluation and Inspections Division
            for kidnapping, rape, and assault (he was convicted of
            unlawful restraint).

        •   A person who purchased two handguns even though he had
            been convicted of a misdemeanor crime of domestic violence
            the preceding year.

        •   A person who was convicted of felony possession of marijuana
            with intent to deliver and who purchased a 9mm handgun one
            week after his conviction.




U.S. Department of Justice                                           51
Office of the Inspector General
Evaluation and Inspections Division
                               CONCLUSION


       The ATF is responsible for ensuring that firearms remain out of the
hands of prohibited persons and for investigating criminal attempts to
evade the Brady Act’s requirements. The FBI refers to the ATF the
names of all prohibited persons who either attempted to or succeeded in
obtaining a firearm from an FFL. The ATF’s responsibilities are then
twofold: to promptly retrieve those firearms that were transferred to
persons subsequently found to be prohibited and to investigate those
referrals that have prosecutorial merit.

       Due to the risk to the public, it is imperative that the ATF quickly
retrieve firearms possessed by prohibited persons. We found, however,
that although the ATF is almost always able to retrieve these firearms,
the retrievals are not always timely. We identified excessive delays in
retrieving the firearms in 65 of the 188 cases (35 percent) we reviewed for
which investigations were completed. In 28 of these 65 cases (43
percent), it took from four months to over a year to retrieve the firearm.
At the four locations we visited, ATF field staff attributed these delays to
the failure of one of the NICS coordinators to refer these cases to the field
offices in a timely manner and to the lack of sufficient field special agents
to deal with large volumes of labor-intensive NICS referrals, wide
geographic territories, and other competing investigative priorities. In
addition, although the ATF considers firearms retrievals to be a priority,
it has not established performance standards for timeliness, and
therefore ATF management is unable to determine whether the retrievals
are being performed on a timely basis. We also found that the ATF
special agents were not documenting sufficiently firearms recoveries
involving transfers of the firearm to a third party, returns of the firearm
to the FFL, or seizures of the firearm by local law enforcement. Further,
they were not documenting that background checks were conducted to
ensure that the third party was not prohibited from possessing a firearm.

       In addition, although the ATF has made progress since the
program was initiated in 1998 to limit the number of referrals sent to the
field offices for investigation, the field offices still are receiving too many
standard denial referrals that do not have prosecutorial merit. USAO
prosecutorial guidelines are a critical tool used by the ATF to determine
which NICS cases to investigate. However, we found that not all of the
USAOs have provided sufficient prosecutorial guidelines to the ATF. We
also found that the ability of the ATF to sufficiently screen the NICS

U.S. Department of Justice                                                52
Office of the Inspector General
Evaluation and Inspections Division
referrals, and therefore prioritize the NICS case workload, was hampered
by the failure of some division office NICS coordinators to screen the
referrals before forwarding the cases to a field office; the lack of training
and written guidance for the NICS coordinators; the Brady Operations
Branch’s unnecessary forwarding of noncriminal alien cases to the
division offices; and the overall lack of communication among the Brady
Operations Branch specialists, the division office NICS coordinators, and
field office special agents regarding the types of cases meriting
investigation.

       Funding constraints had hurt the effectiveness of the Brady
Operations Branch’s operations with staffing shortages resulting in large
workload backlogs. Further, the Brady Operations Branch has been
unable to implement systems modifications that would make the referral
process more efficient. Specifically, the Brady Operations Branch does
not have the technological capability to both distinguish NICS denials by
federal judicial districts (and therefore specific USAO prosecutorial
guidelines) and route the denials directly to the field offices. As a result,
the NICS denials must be routed to the field offices through the division
office NICS coordinators, who generally also perform further screening of
the standard referrals using more specific USAO prosecutorial
guidelines.

       We also found that less than 1 percent of the individuals who
committed Brady Act violations were prosecuted. However, most NICS
cases do not meet prosecutorial guidelines due to the age of the
prohibiting convictions, the nonviolent or noncriminal nature of many of
the prohibiting factors, the difficulty in proving intent to deceive, the type
of firearm involved, and other factors.

       We made 12 recommendations to improve the operation of the
ATF’s investigations, retrieval, and prosecution of Brady Act violations.
We believe that the ATF’s and the Department’s implementation of these
changes will significantly improve the enforcement of Brady Act
violations identified through the NICS.




U.S. Department of Justice                                               53
Office of the Inspector General
Evaluation and Inspections Division
          APPENDIX I: STATES AND THEIR LEVEL OF
                  PARTICIPATION IN NICS


FULL PARTICIPANTS (14): States that conduct their own NICS checks for all
firearms purchases and for permits for handguns and long guns.

       California                     Hawaii                     Pennsylvania
       Colorado                       Illinois                   Tennessee
       Connecticut                    Nevada                     Utah
       Florida                        New Jersey                 Virginia
       Georgia                        Oregon

       Note: The FBI performs pre-pawn checks for Florida.


PARTIAL PARTICIPANTS (9):
States that conduct their own NICS checks for handgun permits, while the FBI
conducts the NICS checks for long gun purchases.

       Iowa                           Nebraska                   North Carolina
       Michigan                       New York

States that conduct their own NICS checks for handgun purchases, while the
FBI conducts the NICS checks for long gun purchases.

       Maryland                       Washington                 Wisconsin
       New Hampshire


NONPARTICIPANTS (27 States; 4 Territories or Commonwealths;
Washington D.C.): States where the FBI conducts all NICS checks on both
handguns and long guns.

       Alabama                        Louisiana                  Ohio
       Alaska                         Maine                      Oklahoma
       Arizona                        Massachusetts              Rhode Island
       Arkansas                       Minnesota                  South Carolina
       Delaware                       Mississippi                South Dakota
       Idaho                          Missouri                   Texas
       Indiana                        Montana                    Vermont
       Kansas                         New Mexico                 West Virginia
       Kentucky                       North Dakota               Wyoming
       Guam                           Puerto Rico                Washington, D.C.
       U.S. Virgin Islands            Northern Mariana Islands


U.S. Department of Justice                                                      54
Office of the Inspector General
Evaluation and Inspections Division
 APPENDIX II: NUMBER OF STANDARD DENIALS EITHER
   CLOSED BY THE ATF BRADY OPERATIONS BRANCH
      OR SENT TO THE ATF FIELD DIVISIONS FOR
       INVESTIGATIONS (CY 2002 AND CY 2003)




                                            Referral Status
              ATF Field         Not             Refer-        Total
               Division       Referred         Standard     Processed

           New Orleans           10,953            1,047       12,000
           St. Paul              10,049            1,122       11,171
           Charlotte             10,286              800       11,086
           Dallas                 9,730              950       10,680
           Columbus               9,276            1,292       10,568
           Seattle                7,188            1,298        8,486
           Houston                7,294            1,092        8,386
           Phoenix                6,340              688        7,028
           Louisville             5,924              869        6,793
           Kansas City            5,134            1,493        6,627
           Nashville              5,110              705        5,815
           Detroit                4,648              734        5,382
           New York               2,211              624        2,835
           Baltimore              2,367              325        2,692
           Boston                 1,603              260        1,863
           Tampa                    571              131          702
           Miami                    195               73          268
           San Francisco              2                0            2
           Total                 98,881           13,503      112,384
          Source: Brady Operations Branch




U.S. Department of Justice                                              55
Office of the Inspector General
Evaluation and Inspections Division
  APPENDIX III: NUMBER OF NICS CASES RECEIVED BY
        THE ATF FIELD DIVISIONS FROM THE
          ATF BRADY OPERATIONS BRANCH
                (CY 2002 AND CY 2003)



                                 Referral Status
                                                         Total
               ATF Field       Refer-       Refer-       Cases
                Division      Delayed      Standard     Referred
              Kansas City          594         1,493        2,087
              Seattle              635         1,298        1,933
              New Orleans          820         1,047        1,867
              Columbus             507         1,292        1,799
              St. Paul             582         1,122        1,704
              Houston              384         1,092        1,476
              Dallas               503           950        1,453
              Louisville           398           869        1,267
              Charlotte            376           800        1,176
              Phoenix              472           688        1,160
              Nashville            336           705        1,041
              Detroit              216           734          950
              New York             153           624          777
              Baltimore            118           325          443
              Boston               110           260          370
              Tampa                 62           131          193
              Miami                 20             73          93
              Total              6,286        13,503      19,789
              Source: Brady Operations Branch




U.S. Department of Justice                                          56
Office of the Inspector General
Evaluation and Inspections Division
 APPENDIX IV: ATF COMMENTS ON THE DRAFT REPORT




U.S. Department of Justice                 57
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            58
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            59
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            60
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            61
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            62
Office of the Inspector General
Evaluation and Inspections Division
           APPENDIX V: EOUSA COMMENTS ON THE
                      DRAFT REPORT




U.S. Department of Justice                     63
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            64
Office of the Inspector General
Evaluation and Inspections Division
 APPENDIX VI: FBI COMMENTS ON THE DRAFT REPORT




U.S. Department of Justice                 65
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            66
Office of the Inspector General
Evaluation and Inspections Division
 APPENDIX VII: OIG ANALYSIS OF ATF, EOUSA, AND FBI
                    COMMENTS


      On June 16, 2004, the Office of the Inspector General (OIG) sent
copies of the draft report to the Bureau of Alcohol, Tobacco, Firearms
and Explosives (ATF), the Executive Office for U.S. Attorneys (EOUSA),
and the Federal Bureau of Investigation (FBI) with a request for written
comments. The ATF, EOUSA, and FBI responded to us in separate
memoranda dated July 9, July 15, and July 2, 2004, respectively. The
ATF concurred with eight of the ten recommendations that required its
action. The ATF did not concur with our recommendation to modify the
NFORCE system to allow the Brady Operations Branch to refer delayed
denials directly to the appropriate ATF field office, or our
recommendation to use non-agent personnel to handle the
administrative tasks related to NICS cases. The EOUSA and the FBI
concurred with the recommendations (one each) that required their
action. Our analysis of the components’ comments follows.

RECOMMENDATIONS

       Recommendation 1: The ATF should modify its NFORCE system
to allow the Brady Operations Branch to refer delayed denials directly to
the appropriate ATF field office.

       Status: Unresolved – Open.

       Summary of ATF Response. The ATF did not concur with this
recommendation. The ATF stated that it did not believe that
decentralizing the referral process would improve the processing of NICS
referrals. In addition, the ATF stated that the special agents in charge
(SAC) of its division offices need to be aware of the types and level of
investigative activity being performed by assigned special agents and
need to be able to analyze and prioritize the referrals based on individual
law enforcement priorities.

       OIG Analysis. We disagree with the ATF’s rationale for not
implementing this recommendation. At none of the four ATF division
offices we visited did the SACs review, analyze, or prioritize the delayed
denials. Instead, the NICS coordinators at the division offices received
the delayed denials directly from the Brady Operations Branch and
forwarded them, without additional review, to the appropriate field office
for investigation and retrieval of the firearms. The resident agents in

U.S. Department of Justice                                            67
Office of the Inspector General
Evaluation and Inspections Division
charge or group supervisors at the field offices were the ones responsible
for reviewing, analyzing, and prioritizing the NICS referrals. Therefore, in
our opinion, sending the delayed denials to the division offices served no
useful purpose. In fact, we found that the process actually caused
delays in retrieving firearms in those instances when the division office
NICS coordinator failed to forward the delayed denials to the field offices
in a timely manner. Accordingly, we believe that having the Brady
Operations Branch bypass the ATF division offices and send the delayed
denials directly to the field office for firearm retrievals would improve the
timeliness of the process. Please reconsider this response and let us
know by September 10, 2004, whether the ATF will modify its NFORCE
system.

     Recommendation 2: The ATF should use non-agent personnel to
handle the administrative tasks related to NICS cases.

       Status: Unresolved – Open.

       Summary of ATF Response. The ATF did not concur with this
recommendation. While the ATF acknowledged the benefits of using
non-agent personnel in this capacity, it stated that the cost of hiring and
training non-agent personnel would outweigh the benefits. Specifically,
the ATF stated that: 1) the volume of delayed denials has steadily
declined since the implementation of the NICS, a trend that the ATF
expects to continue; 2) clearly established written referral guidelines
provided by the U.S. Attorneys’ offices (USAO) would further reduce the
number of referrals to a manageable level; and 3) the role of non-agent
personnel would be limited and only ATF special agents would be able to
determine the type and immediacy of actions to be taken in response to a
particular referral.

       OIG Analysis. We disagree with the ATF’s rationale for not
implementing the recommendation. First, according to data contained in
the FBI’s annual NICS operations reports, although the volume of
delayed denials was declining after CY 2000, the number of delayed
denials increased from 3,429 in CY 2002 to 3,601 in CY 2003. Our
concern, however, is not with the overall number of delayed denials, but
with the disproportionate number of delayed denials received by some of
the ATF divisions, notably New Orleans, Seattle, St. Paul, and Kansas
City. Even within those districts, a small handful of the field offices
receive the majority of the retrievals. Our review found that these field
offices often experienced extensive delays in conducting NICS
investigations and in retrieving firearms from prohibited persons.


U.S. Department of Justice                                              68
Office of the Inspector General
Evaluation and Inspections Division
Special agents at these locations cited the volume of NICS referrals, the
labor-intensive nature of NICS investigations, and other competing
priorities as reasons for the extensive delays. The use of non-agent
personnel at these locations to perform the largely administrative tasks
associated with NICS investigations would allow the special agents to
perform firearm retrievals more expeditiously.

      Second, clearly established USAO prosecutorial guidelines would
help reduce only the number of standard denial referrals, not delayed
denial referrals. Because a standard denial only involves the prohibited
person’s attempted purchase of a firearm, ATF special agents initiate an
investigation only if the prohibited person is likely to be prosecuted by
the USAO. However, because delayed denials involve a prohibited person
who has successfully obtained a firearm, ATF special agents must take
action in all cases to retrieve the firearm regardless of whether the case is
ultimately referred for prosecution. Therefore, the field offices’ volume of
delayed denial cases is not affected by the existence of or lack of USAO
prosecutorial guidelines.

      Third, we agree it would not be appropriate for non-agent
personnel to determine the type and immediacy of actions to be taken in
response to a particular referral. Instead, non-agent personnel could be
used to perform the administrative tasks necessary to assist the special
agent in making these determinations. These administrative tasks
include researching state laws to determine the individual’s prohibited
status, obtaining court records, performing database searches to obtain
the prohibited person’s address, sending contact letters and arranging
third party transfers of firearms at the request of the special agent, and
confirming those instances in which the person either returned the
firearm to the FFL or transferred the firearm to a third party.

      In summary, we believe that the ATF’s practice of requiring special
agents to perform the extensive administrative tasks associated with
NICS cases is not an efficient use of its resources and has, in some
instances, delayed the retrieval of firearms from prohibited persons.
Accordingly, we believe that using non-agent personnel to assist special
agents at those field offices that receive a high volume of NICS cases
would be a more efficient and effective use of the ATF’s resources. Please
reconsider this response and let us know by September 10, 2004,
whether the ATF will use non-agent personnel to handle the
administrative tasks related to NICS cases.




U.S. Department of Justice                                             69
Office of the Inspector General
Evaluation and Inspections Division
     Recommendation 3: The ATF should establish timeliness
standards for firearm retrievals and develop a system for ATF field office
management to monitor and report on compliance with these standards.

       Status: Resolved – Open.

       Summary of ATF Response. The ATF partially concurred with the
recommendation. In its response, the ATF stated that while it agreed
that general timeliness standards could be established, it did not believe
that a uniform timeliness standard could be applied to each NICS case.
The ATF stated that it is in the process of drafting instructions to the
field mandating that an investigation be initiated within 30 days of
receipt of the referral and that its special agents document in the ATF
case management system (NFORCE) what investigative activity has
occurred at least once every 30 days until the case is recommended for
prosecution, the firearm is recovered, or the case is closed.

       OIG Analysis. We agree with the ATF that it would not be feasible
to expect all NICS investigations to adhere to a singular timeliness
standard. However, we believe that the establishment and monitoring of
timeliness standards are necessary to alert ATF field office management
to delays in retrieving firearms and to enable management to take timely
corrective action to address the delays. The ATF’s proposed timeliness
standards appear to be reasonable and meet the intent of the
recommendation. In its response, the ATF did not address the second
part of the recommendation regarding the reporting of instances of
noncompliance by ATF field management. During our review, we found
that the ATF division office SACs and ATF headquarters managers were
generally unaware when specific field offices were experiencing excessive
delays in retrieving firearms. Therefore, we believe that for oversight
purposes, field management should regularly report on its compliance
with the timeliness standards. We consider the recommendation
resolved, but will keep it open until the ATF provides: 1) a copy of the
instructions issued to its field offices pertaining to the timeliness
standards and 2) documentation of the system by which ATF field office
management will report on their office’s compliance with the timeliness
standards.

       Recommendation 4: The ATF should revise its standard initial
contact letter to include a response time frame and should direct its
personnel to send the letters on a timely basis, to track responses to the
letters, and to take timely action to retrieve the firearms when the letters
are unsuccessful in eliciting a response.


U.S. Department of Justice                                             70
Office of the Inspector General
Evaluation and Inspections Division
       Status: Resolved – Open.

        Summary of ATF Response. The ATF concurred with the
recommendation and stated that it will: 1) issue a memorandum to all
its field offices to send the contact letters by certified mail with a return
receipt requested, 2) amend the contact letter to require the recipient to
contact the ATF within 14 days of receiving the letter, and 3) issue an
ATF order to direct the special agents to track cases in NFORCE to
ensure that actions are timely.

      OIG Analysis. We consider the recommendation resolved, but will
keep it open until the ATF provides a copy of: 1) the memorandum
issued to its field offices regarding the issuance of contact letters, 2) the
amended contact letter, and 3) ATF Order 3310.4C.

      Recommendation 5: The EOUSA should ensure that annually
each USAO provide the ATF with specific prosecutorial guidelines for
NICS cases.

       Status: Resolved – Open.

        Summary of EOUSA Response. The EOUSA concurred with the
recommendation and stated that in July 2001 it directed all USAOs to
review and revise their respective NICS case guidelines in accordance
with the Attorney General’s directive of June 28, 2001, and that the
USAOs had complied with this request. Further, the EOUSA stated that
it will take steps to encourage each USAO to review its prosecutorial
guidelines annually, update the guidelines when necessary, and provide
updated guidelines to the ATF.

      OIG Analysis. Based on our review, the EOUSA’s response that all
USAOs had prepared NICS case guidelines is not accurate. We found
that 8 of the 25 USAOs included in our review did not have written
guidelines. Based on the EOUSA’s response of encouraging each USAO
to update such prosecutorial guidelines, we consider the
recommendation resolved, but will keep it open until the EOUSA
provides us with a copy of the prosecutorial guidelines prepared by each
USAO.

      Recommendation 6: The ATF should examine the feasibility of
enabling Brady Operations Branch specialists to identify NICS cases by
federal judicial district, thereby enabling the ATF to consolidate all its


U.S. Department of Justice                                               71
Office of the Inspector General
Evaluation and Inspections Division
NICS referral screening at the Brady Operations Branch. In the interim,
the ATF should require all division office NICS coordinators to screen
NICS standard denial referrals and refer to the field offices only those
cases that meet USAO prosecutorial guidelines.

       Status: Resolved – Open.

       Summary of ATF Response. The ATF concurred with the
recommendation and stated that: 1) it had initiated a pilot project to
have the Brady Operations Branch screen NICS cases from the Boston
division office using specific federal judicial district standards and 2)
under current ATF guidelines, all division office NICS coordinators
should already be screening standard denial referrals and referring to the
field offices only those cases that meet USAO prosecutorial guidelines.

       OIG Analysis. With the initiation of its pilot project, the ATF
appears to be taking appropriate steps to implement the first part of the
recommendation. However, it is unclear from the ATF’s response
whether the second part of the recommendation has been adequately
addressed. Although the ATF’s response indicates that all division office
NICS coordinators already should be screening standard denial cases
and referring to the field offices only those cases that meet USAO
prosecutorial guidelines, our review found that this was not being done
at 6 of the 17 ATF division offices that received referrals from the Brady
Operations Branch. We consider the recommendation resolved, but will
keep it open until the ATF provides: 1) documentation showing the
results of the pilot project and the ATF’s decision on whether to expand
the pilot project to encompass all ATF divisions and 2) documentation
showing that the 6 ATF division offices that were not screening the NICS
referrals are now doing so.

      Recommendation 7: The ATF should provide annual training to
the NICS coordinators and develop a NICS coordinator handbook.

       Status: Resolved – Open.

      Summary of ATF Response. The ATF concurred with the
recommendation and stated that the ATF’s Brady Operations Branch has
scheduled a NICS coordinator conference for August 2004 and has
prepared a NICS handbook, which will be disseminated at the
conference.




U.S. Department of Justice                                            72
Office of the Inspector General
Evaluation and Inspections Division
      OIG Analysis. We consider the recommendation resolved, but will
keep it open until the ATF provides: 1) the NICS coordinator conference
agenda and list of conference participants and 2) a copy of the NICS
handbook.

       Recommendation 8: The ATF Brady Operations Branch should
refer to the field offices only those alien cases that meet the USAO
prosecutorial guidelines.

       Status: Resolved – Open.

       Summary of ATF Response. The ATF concurred with the
recommendation and stated that it would continue to refer to the field
only those alien denials that result from both firearm violations (e.g.,
those that meet USAO prosecutorial guidelines). The ATF further stated
that if the denial was based solely on an immigration violation, the
referral would be forwarded only to the Department of Homeland
Security’s Bureau of Immigration and Customs Enforcement (ICE) and
not to the ATF field offices.

        OIG Analysis. Although the ATF states that it does not refer to its
field offices the names of individuals who were denied solely based on
immigration violations, our review found that this was occurring. In our
sample review of 200 standard referrals, we identified 22 such cases.
Therefore, if it is the ATF’s policy not to forward these types of cases to
its field offices, apparently not all Brady Operations Branch specialists
are complying with the policy. We consider the recommendation
resolved, but will keep it open until the ATF provides documentation to
show that this policy has been adequately communicated to the Brady
Operations Branch specialists.

      Recommendation 9: The ATF should require division office NICS
coordinators and field office personnel to notify the Brady Operations
Branch of referrals that do not meet USAO guidelines.

       Status: Resolved – Open.

      Summary of ATF Response. The ATF concurred with the
recommendation and stated it would ensure that the Brady Operations
Branch and the ATF field divisions were using the same screening
guidelines.




U.S. Department of Justice                                            73
Office of the Inspector General
Evaluation and Inspections Division
      OIG Analysis. The ATF’s response of ensuring that the Brady
Operations Branch and the ATF field divisions are using the same
screening guidelines only partially addresses the recommendation. The
ATF also needs to instruct its division NICS coordinators and field office
personnel to report any referrals they receive that do not meet the
screening guidelines. This feedback will help alert Brady Operations
Branch management to any problems occurring in the referral process.
We consider the recommendation resolved, but will keep it open until the
ATF provides documentation showing that it has established a
mechanism for its field divisions to provide feedback to the Brady
Operations Branch on receiving referrals that do not meet the screening
guidelines.

       Recommendation 10: The ATF should require division office
NICS coordinators and field office personnel to notify the Brady
Operations Branch and the FBI NICS Section of trends in inappropriate
referrals of non-prohibited persons. Also, the ATF should require that
the field office personnel, via the division office NICS coordinators,
provide to the FBI NICS Section the names of those individuals that the
ATF determines not to be prohibited and documentation to support the
reason for the non-prohibited status.

       Status: Resolved – Open.

       Summary of ATF Response. The ATF concurred with the
recommendation and agreed to: 1) report trends in inappropriate
referrals of non-prohibited persons to both the Brady Operations Branch
and the FBI NICS Section and 2) establish a method by which the field
can capture non-prohibited referrals and supply that information to the
Brady Operations Branch, which in turn will notify the FBI NICS Section.
In its response, the ATF also stated that its review of NFORCE data
indicated that only 10 percent of the NICS referrals forwarded to the field
by the Brady Operations Branch were closed as “Not a Prohibited Person”
as a result of subsequent investigation and that the remaining
90 percent pertained to confirmed prohibited persons.

       OIG Analysis. The ATF’s statement that 90 percent of the NICS
referrals forwarded to the field by the Brady Operations Branch pertained
to confirmed prohibited persons is not accurate. NICS coordinators and
field office managers process standard denials and delayed denials
differently. A standard denial is first reviewed to determine whether the
case meets USAO prosecutorial guidelines and therefore merits
investigation. If the case does not meet USAO prosecutorial guidelines,


U.S. Department of Justice                                            74
Office of the Inspector General
Evaluation and Inspections Division
the second step, which is to determine whether the person is actually
prohibited, will not be performed. Instead, the NICS coordinator or field
office manager will close the case in NFORCE under the categories “No
Potential,” “Did Not Meet Federal/State Guidelines,” or has “No
Prosecutive Merit.” In contrast, a delayed denial is first reviewed to
determine whether the person is actually prohibited prior to initiating a
firearms retrieval. Because of these different approaches, the ATF can
identify only what percentage of the delayed denials pertain to confirmed
prohibited persons and cannot do the same for standard denials. On the
basis of our review, we believe that the percentage of persons
subsequently found not to be prohibited is significantly higher than the
10 percent cited by the ATF. As indicated in the report, 69 of the 197
delayed denials we reviewed were closed because the person was
determined not to be prohibited.

       Regardless of this issue, the ATF concurred with the
recommendation. We consider the recommendation resolved, but will
keep it open until the ATF provides: 1) written policies or procedures
requiring the NICS coordinators to report trends in inappropriate
referrals of non-prohibited persons to both the Brady Operations Branch
and the FBI NICS Section and 2) documentation of the established
methodology for capturing non-prohibited referrals and supplying that
information to the Brady Operations Branch and to the FBI NICS
Section.

       Recommendation 11: The ATF should ensure that the Brady
Operations Branch is sufficiently staffed to minimize backlogs and
sufficiently funded to implement necessary automated system
modifications.

       Status: Resolved – Open.

       Summary of ATF Response. The ATF concurred with the
recommendation and agreed that the Brady Operations Branch required
additional staffing, as well as improvements to the ATF NICS. The ATF
stated that many operational areas within the ATF are also in pressing
need of personnel and resources and that it must carefully allocate its
resources in accordance with Department and ATF priorities. The ATF
agreed to ensure that the Brady Operations Branch was sufficiently
staffed and stated that it is in the process of hiring two data entry
contractors.




U.S. Department of Justice                                          75
Office of the Inspector General
Evaluation and Inspections Division
       OIG Analysis. The ATF’s addition of two contractors to the Brady
Operations Branch’s staffing should address the Branch’s short-term
staffing needs. However, some of our other recommendations to
centralize the screening function at the Brady Operations Branch may
increase the workload of the Branch and require additional staff, and
therefore the ATF also needs to plan for the Branch’s long-term staffing
needs. In its response, the ATF did not specifically address what steps it
was taking to ensure that the Brady Operations Branch is sufficiently
funded to implement necessary automated system modifications. We
believe that these modifications are essential to improving the efficiency
and effectiveness of the NICS referral process and that the ATF should
seek additional funding for these modifications. We consider the
recommendation resolved, but will keep it open until the ATF provides: 1)
documentation that the two contractors have been hired, along with a
description of their duties, and 2) documentation of the efforts made by
the ATF to obtain funding for the Brady Operation Branch’s automated
system modifications.

      Recommendation 12: The FBI should distinguish delayed denials
from standard denials on its daily electronic transfers of denial
transactions to the ATF NICS Referral System.

       Status: Resolved – Open.

      Summary of FBI Response. The FBI concurred with the
recommendation and stated that on April 13, 2004, it initiated a program
change request to allow for the marking of those denial transactions
requiring a firearm retrieval. This change will result in the daily transfer
of two files to the ATF – one containing standard denials and one
containing delayed denials. Because of other priorities, the FBI projected
that the system change would not be implemented until September 2005.

      OIG Analysis. We consider the recommendation resolved, but will
keep it open until the FBI provides documentation that the required
system change has been implemented.




U.S. Department of Justice                                            76
Office of the Inspector General
Evaluation and Inspections Division
